<html>
<title> - NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 111-92]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-92
 
                          NATIONAL PARKS BILLS

=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 227                                S. 1117

                           S. 625                                S. 1168

                           S. 853                                H.R. 714

                           S. 1053                               H.R. 1694




                               __________

                             JULY 15, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources


                  U.S. GOVERNMENT PRINTING OFFICE
52-444                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burr, Hon. Richard, U.S. Senator From North Carolina.............     3
Cardin, Hon. Ben, U.S. Senator From Maryland.....................     4
Farrell, Mara, Co-Founder, Fishkill Historical Focus, Fishkill, 
  NY.............................................................    25
Francis, Sharon F., Executive Director, Connecticut River Joint 
  Commissions, Charlestown, NH...................................    18
Sanders, Hon. Bernard, U.S. Senator From Vermont.................    29
Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............    17
Stevenson, Katherine H., Acting Deputy Director, Support 
  Services, National Park Service, Department of the Interior....     6
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    37


                          NATIONAL PARKS BILLS

                              ----------                              


                        WEDNESDAY, JULY 15, 2009

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order. We want to welcome Senator Cardin. I'm going to share 
a brief opening statement, we'll turn to Ranking Member Burr, 
and then Senator Cardin. We look forward to hearing your 
remarks.
    This afternoon we will begin reviewing several bills that 
have been referred to the Subcommittee on National Parks. In an 
effort to address the many hearing requests that we received, 
we will hold a second subcommittee hearing covering another 
group of bills next week.
    Today's hearing will consider the following bills.
    S. 227, which will establish two new national park units. 
The Harriet Tubman National Historical Park in Auburn, New York 
and the Harriet Tubman Underground Railroad National Historical 
Park in Maryland.
    S. 625, to establish the Waco Mammoth National Monument in 
the State of Texas.
    S. 853, to designate additional segments and tributaries of 
White Clay Creek in the States of Delaware and Pennsylvania as 
a component of the National Wild and Scenic River System.
    S. 1053, to amend the National Law Enforcement Museum Act 
to extend the time period to begin construction of the museum.
    S. 1117, to authorize the Secretary of Interior to provide 
assistance in implementing the cultural heritage, conservation, 
and recreational activities in the Connecticut River.
    S. 1168 and H.R. 1694, which would amend the American 
Battlefield Protection Act to authorize the acquisition and 
protection of nationally significant battlefields and 
associated sites of the Revolutionary War and the War of 1812.
    H.R. 714, to authorize the Secretary of the Interior to 
enter into a lease in the Virgin Islands National Park.
    I believe most of these bills, if not all of them are non-
controversial. I understand that the administration has 
identified concerns with a few of the bills. We can discuss 
those issues with the National Park Service witness in a few 
minutes and then hear from our public panel.
    I'd like to turn to the ranking member, Senator Burr.
    [The prepared statements of Senator Kaufman and 
Representative Chet Edwards follow:]
      Prepared Statement of Hon. Edward E. Kaufman, U.S. Senator 
                             From Delaware
    Mr. Chairman, Mr. Ranking Member, Subcommittee members, thank you 
for your consideration of S. 853, legislation that would designate 
additional segments and tributaries of White Clay Creek in the States 
of Delaware and Pennsylvania as a component of the National Wild and 
Scenic Rivers System. I introduced this legislation back in April of 
this year along with my colleagues Senator Carper and Senator Casey.
    The White Clay Creek Watershed was originally designated a National 
Wild and Scenic River in 2000. At that time, almost 191 river miles of 
the watershed were included in the designation. It was the first river 
in Delaware to be classified as wild and scenic and the first in the 
country to be designated on a watershed basis. Today it remains 
Delaware's only National Wild and Scenic River.
    The watershed covers approximately 107 square miles and drains over 
69,000 acres in New Castle County, Delaware and Chester County, 
Pennsylvania. Of those 69,000 acres, 5,000 acres are public lands owned 
by state and local governments and the rest of them are privately owned 
and maintained.
    It boasts a rich and diverse variety of plant and animal life, a 
bi-state preserve and state park, and a number of prehistoric 
archeological sites. There are 27 species of reptiles and amphibians 
and approximately 21 species of fish found in the watershed. The Bog 
Turtle, a threatened species as identified by the U.S. Fish and 
Wildlife Service, is among them. The White Clay Creek is also 
Delaware's premier trout-fishing stream, stocked annually by both 
Delaware and Pennsylvania. Almost 100,000 people live within the 
watershed and it's a major source of drinking water for the area.
    My legislation adds nine river miles to the designation by 
incorporating the Lamborn Run in Delaware and the East Branch and Egypt 
Run in New Garden Township in Pennsylvania. The incorporation of these 
nine miles has the unanimous support of all the communities and local 
governments located in the watershed.
    The White Clay Creek Watershed is truly a remarkable region in 
Delaware and Pennsylvania. Expanding its National Wild and Scenic River 
designation will not only allow us to further preserve this unique 
area, but also will allow us to continue to enjoy it for years to come.
                                 ______
                                 
Prepared Statement of Hon. Chet Edwards, U.S. Representative From Texas
    Thank you, Chairman Udall, Ranking Member Burr, and Members of the 
Senate Subcommittee on National Parks for the opportunity to provide 
testimony for your Subcommittee regarding the Waco Mammoth National 
Monument Establishment Act of 2009 which I introduced to the House of 
Representatives on March 6, 2009. I would also like to thank Senator 
Cornyn and Hutchison for their support and efforts to advance this bill 
in the Senate.
    The Waco Mammoth National Monument Establishment Act of 2009 will 
establish in Texas the Waco Mammoth National Monument as a unit within 
the National Park System; authorize the construction of administration 
and visitor use facilities on the site; and instruct the Secretary of 
the Interior to prepare a management plan for the monument in 
consultation with Baylor University and the City of Waco.
    First discovered in 1978 in my hometown of Waco, the Waco Mammoth 
Site is the largest known concentration in the world of prehistoric 
mammoths dying from the same event (some 68,000 years ago). It is a 
unique find of national and international importance.
    To date, twenty-four Columbian mammoths including articulated 
skeletons, a giant tortoise and a camel have been discovered and the 
potential for future mammoth discoveries is high with research 
activities ongoing at the 109 acre site. It has become an area of 
significant study within the archaeological community, and, as living 
history, has the capacity to serve as an educational resource for 
people of all ages for generations to come.
    For nearly a decade, I have been proud to join with and support the 
efforts of the City of Waco, Baylor University and the Waco Mammoth 
Foundation to fulfill our dream of having the Waco Mammoth Site become 
a national monument and join the ranks of American National Monuments 
such as the Statue of Liberty. This project has received four hundred 
thousand dollars in grant funding, as well as robust private 
fundraising that brings the monetary support this project has received 
to over $3.5 million. Construction of a permanent protective structure 
has already begun. This great effort and initiative should serve as a 
testament to the dedication and importance that Waco feels for this 
site.
    I plan to continue my strong support for this project in every 
possible way, and it will be one of my top priorities in next year's 
appropriation cycle.
     Directed by legislation I authored in 2002, the National Park 
Service completed last year a Special Resource Study of the Waco 
Mammoth Site. The National Park Service and Department of Interior 
found that the site met all criteria and reported favorably regarding 
establishing the site as a national monument, with management led by 
the National Park Service in partnership with Baylor University and the 
city of Waco.
    The Special Resource Study found that the site is nationally 
significant. The site possesses a unique combination of skeletal 
remains still located in their original position along with specimens 
that have been excavated from the site that have proven to be the 
nation's first and only recorded discovery of a nursery herd of 
Pleistocene mammoths. The study also found that the Waco Mammoth Site 
possesses excellent opportunities for visitor enjoyment, scientific 
study and education.
    The Special Resource Study found that the Waco Mammoth Site not 
only meets suitability and feasibility criteria for consideration as a 
new unit of the national park system but would serve to expand and 
enhance the diversity of the paleontological resources already 
represented by other parks in the system.
    Having judged that the Waco Mammoth Site meets the criteria of 
national significance, suitability and feasibility, the National Park 
Service and Department of Interior evaluated several management 
alternatives for the Waco Mammoth site.
    They found that the most effective and efficient approach for 
ensuring the long-term protection of the site and maximizing 
opportunities for public enjoyment and education would be for the 
National Park Service to lead a partnership with the City of Waco and 
Baylor University.
    Under this arrangement, the National Park Service would take the 
lead responsibility for the protection, scientific study and visitor 
enjoyment of the site while the enlisting the partners in this effort. 
The partners would take the responsibility for initiating additional 
recreational and educational opportunities at the site.
    The local community has committed over $3.5 million dollars toward 
this effort.
    The Waco Mammoth Site is truly an American treasure and one that 
deserves to be preserved and protected for the education and enjoyment 
of families and children throughout Texas and the nation.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Good afternoon. I 
want to thank you for convening this subcommittee hearing.
    This is our first legislative park subcommittee hearing of 
the year. I look forward to working with you and other members 
on what I think will be a very productive year. We do have 
seven bills on the agenda today. Most are fairly straight 
forward and involve additional designations establishing park 
units or adjusting deadlines.
    All of these bills are important, but one particularly 
caught my attention as I prepared for the hearing. H.R. 714, 
would authorize the Secretary of the Interior to enter into a 
lease with the CBI Acquisitions Inc., the proprietors of the 
Caneel Bay Resort in the Virgin Islands National Park.
    Similar bills have previously come before the subcommittee 
and I continue to have reservations regarding the appearance of 
a sole source contract. But I do recognize the unique set of 
circumstances surrounding this situation. I'm very interested 
in hearing more about the logic behind the Park Service 
position as it relates to this proposal.
    I would like to thank our witnesses for being here today. I 
apologize to them up front that at the conclusion of Senator 
Cardin's remarks I'm going to sneak out for an Intelligence 
Committee markup, but I assure the witnesses that I will cover 
the contents of this hearing thoroughly.
    I thank you, Mr. Chairman.
    Senator Udall. I thank the ranking member. I want to turn 
now to Senator Cardin for his remarks. We thank you for taking 
the time to come to the subcommittee hearing today.
    Senator Cardin.

          STATEMENT OF HON. BEN CARDIN, U.S. SENATOR 
                         FROM MARYLAND

    Senator Cardin. Senator Udall and Senator Burr, I thank you 
very much for the opportunity of testifying in support of S. 
227, the Harriet Tubman National Historical Park and Harriet 
Tubman Underground Railroad National Historical Park Act. I'm 
joined by my colleagues Senator Mikulski, Senator Schumer, and 
Senator Gillibrand in this legislation. We have the support of 
the National Park Service.
    I would ask that if we could put into the record a letter 
from Governor O'Malley, the Governor of Maryland.*
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Senator Udall. Without objection.
    Senator Cardin. The woman who was known as Harriet Tubman 
was born Araminta ``Minty'' Ross in approximately 1822 in 
Dorchester County, Maryland. She spent nearly 30 years of her 
life as a slave on Maryland's Eastern shores. As a young adult 
she took the first name, Harriet. When she was 25 she married 
John Tubman.
    Harriet Tubman escaped from slavery in 1849. She did so in 
the dead of night navigating the maze of tidal streams and 
wetlands that are the hallmark of Maryland's Eastern shore. She 
did so alone demonstrating courage, strength, and fortitude 
that became her hallmark.
    Harriet Tubman returned repeatedly for more than 10 years 
to the place of her enslavement in Dorchester and Caroline 
Counties where under the most adverse conditions she led many 
family members and other slaves to their freedom. Tubman became 
known as the ``Moses of African Americans and White 
Abolitionists.'' She was perhaps the most famous and most 
important conductor in the network resistance known as the 
Underground Railroad.
    During the Civil War, Tubman served the Union forces as a 
spy, a scout, and a nurse. She served in Virginia, Florida, and 
South Carolina. She is credited with leading hundreds of slaves 
from those slave States to freedom during those years.
    Following the Civil War, Tubman settled in Auburn, New 
York. There she was active in the Women's Suffrage movement. 
She also established one of the first incorporated homes for 
the aged African Americans.
    Harriet Tubman died in Auburn in 1913. She is buried there 
at Fort Hill Cemetery. Slaves were forced to live in primitive 
buildings even though many were skilled tradesman who 
constructed substantial homes for their owners.
    Not surprisingly very few of the structures associated with 
early Tubman life still stand. The landscape on the Eastern 
shore of Maryland, however, remains true to the time that 
Tubman lived there. Farm fields and forests dot the landscape 
which is also notable for its extensive network of tidal rivers 
and wetlands.
    In particular a number of properties, including the 
homestead of Ben Ross, her father, Stewarts Canal, where he 
worked, Brodess Farms, where she worked as a slave, and others 
are preserved even if their buildings are not. Where she 
lived--were she alive today, Tubman would recognize much of the 
landscape that we knew as she secretly led black men, women, 
and children to their freedom.
    In New York on the other hand, many of the buildings 
associated with Tubman's life remain intact. Her personal home 
as well as the Tubman Home for the Aged, the church and rectory 
with a Thompson memorial AME Zion Episcopal Church and the Fort 
Hills Cemetery all still stand. At Congress' direction the 
National Park Service conducted a special resource study to 
determine the appropriateness of establishing a unit in the 
National Park Service to honor Harriet Tubman.
    The Park Service recommended that a park that would include 
two geographically separate units would be appropriate. The New 
York unit would include the tightly clustered Tubman buildings 
in Auburn. The Maryland portion would include large sections of 
landscape that are consistent of Tubman's time and historically 
relevant. The bill before you incorporates the recommendations 
of the National Park Service.
    Harriet Tubman was a true American patriot. She was someone 
from whom liberty and freedom was not just concepts. She lived 
those principles and shared that freedom with hundreds of 
others.
    In doing so she has earned our Nation's respect and honor. 
That is why I am so proud to ask you to support this 
legislation establishing the Harriet Tubman National Historical 
Park and Harriet Tubman Underground Railroad National 
Historical Park. This is part of the heritage of our Nation. 
This park will allow young people and everyone to know more 
about this remarkable woman.
    Senator Udall. Thank you, Senator Cardin. This is a 
compelling idea. I look forward to working with you as I know 
the chairman of the full committee does as well.
    I turn to the ranking member if he had any questions or 
comments on this particular legislation?
    Senator Shaheen, do you have any questions or comments?
    Thank you for taking the time to join us today.
    Senator Cardin. Thank you.
    Senator Udall. Thank you. Before I call--actually let me 
call the witness Katherine H. Stevenson, who is the Acting 
Deputy Director of Support Services, National Park Service to 
the witness table. As you're getting comfortable I want to see 
if Senator Shaheen has any opening remarks. I'd be happy to 
yield to her.
    Senator Shaheen. Not at this time.
    Senator Udall. Thank you, Senator Shaheen.
    Ms. Stevenson, we look forward to hearing your comments.

 STATEMENT OF KATHERINE H. STEVENSON, ACTING DEPUTY DIRECTOR, 
  SUPPORT SERVICES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Stevenson. Thank you, sir. Thank you for the 
opportunity to appear before you to offer the views of the 
Department of the Interior on the seven bills before you today. 
For the sake of time I will abbreviate my testimony and I 
request that the full text be entered in the record.
    The Department supports the enactment of S. 227, which 
would establish two new units of the National Park Service to 
honor and commemorate the life and work of Harriet Tubman in 
Maryland and in Auburn, New York. These units, to be managed 
cooperatively with the present owners, will preserve the 
structures and the historic landscapes associated with Harriet 
Tubman's remarkable and esteemed contributions to freedom.
    The Department also supports S. 625, the Waco Mammoth 
National Monument designation. This bill would establish a new 
unit of the National Park Service near the city of Waco, Texas. 
The site would preserve and interpret the remains of the 
Nation's largest concentration of mammoths dying in the same 
event. The national monument would be managed as a partnership 
with the city of Waco and Baylor University.
    The Department supports enactment of the bill, S. 853, to 
authorize additional segments of White Clay Creek as a National 
Wild and Scenic River. In the year 2000, the White Clay Creek 
and its tributaries were designated as a unit of the National 
Wild and Scenic River system. In that bill several eligible and 
suitable segments were removed from consideration because the 
Delaware River Basin Commission was looking at these areas as 
possible locations for reservoirs and because there was not 
demonstrated municipal support.
    These issues are now resolved, and the Department supports 
the addition of the nine miles to the National Wild and Scenic 
Rivers system.
    The Department has no objection to S. 1053, which would 
extend the authorization of the National Law Enforcement Museum 
to 2013.
    The Department, however, cannot support, S. 1117, the 
Connecticut River Watershed Assistance Act as we believe that 
there are existing funding mechanisms within the National Park 
Service, within the U.S. Fish and Wildlife Service and other 
Federal agencies to foster the partnership efforts described in 
the bill. This has been demonstrated through various 
recognition, technical assistance and funding efforts by NPS 
and others in the past.
    The Department supports S. 1168 and H.R. 1694, the 
Revolutionary War and War of 1812 Battlefield Protection Act 
with an amendment that would include the funds authorized by 
the House and would contain authority for acquisition grants. 
This bill authorizes a matching grant program for Revolutionary 
War and War of 1812 sites. The grants will leverage local 
preservation efforts to preserve sites with a minimum of 
Federal assistance.
    Finally, the Department supports H.R. 714, which would 
allow the Secretary of the Interior to enter into a lease in 
lieu of the retained use estate at Caneel Bay Resort. The 
retained use estate expires in 2023, but lease would be to the 
economic and administrative advantage of the National Park 
Service and to the lease. In order to execute a non-competitive 
lease, the National Park Service would need this authority.
    Ordinarily, the National Park Service would oppose such a 
non-competitive lease or non-competitive concession. But the 
circumstances in this situation make this arrangement necessary 
and desirable.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any additional questions you may have.
    [The prepared statement of Ms. Stevenson follows:]
 Prepared Statement of Katherine H. Stevenson, Acting Deputy Director, 
  Support Services, National Park Service, Department of the Interior
                                h.r. 714
    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on H.R.714, a bill to authorize the 
Secretary of the Interior to lease certain lands in Virgin Islands 
National Park, and for other purposes.
    The Department supports H.R. 714, with some minor amendments.
    This legislation would allow the Secretary of the Interior to enter 
into a lease with the current holder of a retained use estate for 
property at Caneel Bay within Virgin Islands National Park after the 
termination of the retained use estate and donation of all improvements 
to the National Park Service (NPS). The Caneel Bay resort is one of two 
large resorts on the island of St. John. Located on a 150-acre 
peninsula on the northwest side of the island, this luxury resort has 
approximately 425 to 450 employees and serves as one of the primary 
economic engines for the U.S. Virgin Islands. A large number of 
employees travel daily to St. John from their residences on neighboring 
St. Thomas. The resort is also an Economic Development Center 
beneficiary and, as such, receives various tax exemptions from the 
Government of the Virgin Islands.
    Lawrence Rockefeller established the Caneel Bay resort in 1956. In 
1983, Jackson Hole Preserve, a Rockefeller corporation, donated the 
land at Caneel Bay to the United States Government for inclusion within 
Virgin Islands National Park and reserved to itself the right to 
continue its operations for 40 years under a retained use estate. 
Jackson Hole Preserve did not convey the improvements on the land to 
the United States at that time. The retained use estate will expire on 
September 30, 2023. The warranty deed stipulates that when the retained 
use estate terminates, the owner of the retained use estate must donate 
the buildings and other improvements to the NPS.
    Enactment of H.R. 714 would allow the current holder of the 
retained use estate to negotiate a long-term lease, up to 40 years, 
with the NPS that could extend the Caneel Bay Resort operation well 
beyond the year 2023. Such an extension could allow the leaseholder to 
secure financing to undertake capital improvements that would most 
likely not be possible financially under the remaining term of the 
current retained use estate.
    The NPS has evaluated various options for the future use and 
management of the Caneel Bay property. Based upon a value analysis, we 
believe that the continued future operation of Caneel Bay as a resort 
under a lease would provide the greatest advantage to the NPS and the 
U.S. Virgin Islands. A lease could provide economic and administrative 
benefits to the NPS and the lessee that are not available or not as 
viable as under a retained use estate or a concession contract, two of 
the other options that were examined.
    Legislation is necessary because the NPS does not have the 
authority to enter into a noncompetitive lease under existing 
regulations (36 CFR Sec. 18, Leasing of Properties in Park Areas). The 
only exceptions to competitive leasing under the regulations are for 
leases to nonprofit organizations or units of government, and for 
leases of duration of 60 days or less.
    We would like to stress that we are supporting this legislation 
because the Caneel Bay resort is an exceptional case. In general, where 
leasing has been determined to be appropriate in a national park unit, 
we support leasing through the usual competitive process, consistent 
with existing law and regulations.
    H.R. 714 requires that the operations and maintenance of the resort 
be conducted in a manner consistent with the preservation and 
conservation of the resources and values of the park. Additionally, the 
lease authorized by the bill would address the continued protection, 
preservation, and restoration of the property's structures, many of 
which are more than 50 years old, and may be eligible for the National 
Register of Historic Places. The lease also would address the fair 
market value rent of the property, constraints on development of 
property during the term of the lease, and the ability to transfer the 
lease in the future.
    The legislation also provides for the rental proceeds to be 
retained by the Virgin Islands National Park and used for visitor 
services and resource protection. It would require congressional 
notification at least 60 days prior to the effective date of the lease, 
similar to the requirement for large concession contracts. And, it 
would require the property's conversion to a concession operation after 
the lease expires if the Secretary determines continuation of 
commercial services at the resort to be appropriate. When the current 
retained use estate was created, there were three small properties that 
are integral to the operation of the Caneel Bay resort that were not 
included. These properties could be acquired by the NPS and included 
under the terms of the lease that would be authorized by H.R. 714.
    We appreciate the many changes that have been made to this 
legislation since it was first introduced in the 110th Congress to help 
assure that the interests of Virgin Islands National Park, and the 
general public, would be protected if the Caneel Bay resort property is 
leased on a noncompetitive basis. We would like to work with the 
subcommittee on a few minor changes that would further clarify the bill 
language.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                                 s. 227
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 227, a bill to establish the 
Harriet Tubman National Historical Park in Auburn, New York, and the 
Harriet Tubman Underground Railroad National Historical Park in 
Caroline, Dorchester and Talbot Counties in Maryland.
    The Department supports enactment of S. 227.
    Harriet Tubman is truly an iconic American. Born circa 1822 as an 
enslaved person in Dorchester County, Maryland, she courageously 
escaped her bondage in 1849, returned on many occasions to Dorchester 
and Caroline Counties to free others including members of her family 
and remains known, popularly and appropriately, as ``The Moses of her 
People.'' She was a leading ``conductor'' along the Underground 
Railroad guiding the enslaved to freedom at great risk to her own life. 
Her accomplishments were admired and extolled by her contemporaries 
including the abolitionist leader and former slave Frederick Douglass. 
In 1868 Douglass wrote to Tubman:

          Most that I have done and suffered in the service of our 
        cause has been in public, and I have received much 
        encouragement at every step of the way. You, on the other hand, 
        have labored in a private way. I have wrought in the day-you in 
        the night.The midnight sky and the silent stars have been the 
        witnesses of your devotion to freedom and of your heroism.

    Harriet Tubman served honorably during this nation's Civil War as a 
cook, nurse, scout and spy for Union forces in Virginia, South Carolina 
and Florida, always at personal risk and always advancing the quest for 
freedom by providing assistance to other enslaved people. In June 1863 
she guided Union troops in South Carolina for an assault along the 
Combahee River resulting in the emancipation of hundreds of the 
enslaved.
    At the invitation of then U.S. Senator and later Secretary of State 
William H. Seward, Harriet Tubman purchased land from him in Auburn, 
New York where she lived and cared for members of her family and other 
former slaves seeking safe haven in the North. In later life, she 
became active in progressive causes including efforts for women's 
suffrage. Working closely with activists such as Susan B. Anthony and 
Emily Howland, she traveled from Auburn to cities in the East 
advocating voting rights for women. Harriet Tubman gave the keynote 
speech at the first meeting of the National Federation of Afro-American 
Women upon its founding in 1896.
    Harriet Tubman was an intensely spiritual person and active in the 
African Methodist Episcopal Zion Church. In 1903 she donated land to 
the Church in Auburn for the establishment of a home ``for aged and 
indigent colored people.'' She died on March 10, 1913 at this home for 
the aged and was buried with full military honors at Fort Hill Cemetery 
in Auburn. Booker T. Washington, also born into slavery, journeyed from 
Alabama a year later to speak at the installation of a commemorative 
plaque for her at Auburn City Hall.
    Harriet Tubman is an American figure of lore and legend. Today, she 
is an enduring inspiration to those who cherish individual freedom and 
strive for human rights throughout the world.
    On January 12, 2009, the Department transmitted the Harriet Tubman 
Special Resource Study to Congress. The study, authorized by Public Law 
106-516, the Harriet Tubman Special Resource Study Act, concluded that 
the resources associated with Harriet Tubman in Auburn, New York and 
Caroline, Dorchester and Talbot Counties, Maryland met the national 
significance, suitability, feasibility and need for National Park 
Service management criteria for potential units of the National Park 
System. After an intensive and lengthy public involvement process, the 
study found that there is extensive public support, including support 
by affected private property owners within the boundaries proposed by 
S. 227 in New York and Maryland, for the establishment of the two 
units. Locally elected officials in both states have also expressed 
their support.
    S. 227 would authorize the Secretary of the Interior to establish a 
unit of the National Park System, the Harriet Tubman National 
Historical Park in Auburn, New York, upon the execution of an easement 
with the A.M.E. Zion Church, the owners of the property. The park would 
be comprised of the Harriet Tubman Home, the Home for the Aged, the 
Thompson Memorial A.M.E. Zion Church, which is no longer used for 
religious services, and its parsonage. The Secretary would be 
authorized to enter into cooperative agreements and provide technical 
and matching financial assistance to the A.M.E. Zion Church and others 
for historic preservation, rehabilitation, research, maintenance and 
interpretation of the park and related Harriet Tubman resources in 
Auburn, New York. The Secretary would be further authorized to provide 
uniformed National Park Service staff to operate the park in 
partnership with the Church and to conduct interpretation and tours.
    In Maryland, the Harriet Tubman Underground Railroad National 
Historical Park would be established and comprised of nationally 
significant historic landscapes associated with Harriet Tubman in 
Caroline, Dorchester and Talbot Counties. This agricultural, forest and 
riverine mosaic largely retains historic integrity from the time that 
Tubman was born enslaved, worked in the fields and forests, emancipated 
herself, and helped others there to escape to freedom.
    The Secretary of the Interior would be authorized to provide 
matching grants to the state of Maryland, local governments and 
nonprofit organizations for the purchase of lands and easements within 
the boundary of the park and matching grants to the state of Maryland 
for the construction of a visitor services facility to be jointly 
operated by the state and uniformed staff of the National Park Service. 
The Secretary would be further authorized to enter into cooperative 
agreements with various organizations and property owners, and provide 
grants for the restoration, rehabilitation, public use, and 
interpretation of sites and resources related to Harriet Tubman, as 
well as research including archeology. Because a number of closely 
related Harriet Tubman resources exist on lands adjacent to the 
proposed park managed by the U.S. Fish and Wildlife Service at 
Blackwater National Wildlife Refuge, or on lands scheduled for future 
refuge acquisition, the bill provides for an interagency agreement 
between the U.S. Fish and Wildlife Service and the National Park 
Service to promote compatible stewardship and interpretation of these 
resources.
    The cost estimates for the annual operations and maintenance for 
each unit would be approximately $500,000 to $650,000. The cost 
estimates for the federal share of capital improvements are 
approximately $7.5 million at the Harriet Tubman National Historical 
Park in Auburn, New York. The federal share of the Harriet Tubman 
Underground Railroad visitor center and grants for land protection at 
the Harriet Tubman Underground Railroad National Historical Park in 
Maryland are estimated at up to $11 million. The cost estimates for the 
completion of the general management plan for each unit would be 
approximately $600,000 to $700,000. All funds are subject to NPS 
priorities and the availability of appropriations.
    Mr. Chairman, it is not a usual occasion when the Department comes 
before the committee to testify on a bill to establish two units of the 
National Park System to honor an enslaved woman who rose from the most 
difficult and humble beginnings imaginable to indelibly influence the 
causes of human justice and equality in our society, and to have such a 
significant impact on our national story. We do so with full 
understanding of the life and contributions of Harriet Tubman and 
suggest that nearly 100 years after her death the time for this 
abundantly deserved honor has finally arrived.
    That concludes my testimony Mr. Chairman. I would be pleased to 
respond to any questions from you and members of the committee.
                                 s. 625
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 625, a bill to authorize the Secretary of the Interior to establish 
the Waco Mammoth National Monument in the State of Texas.
    The Department supports S. 625, with an amendment to provide the 
map reference in the bill. The Department testified in support of H.R. 
1376, a similar bill, on April 23, 2009, before the House Subcommittee 
on National Parks, Forests and Public Lands.
    S. 625 would establish a new unit of the National Park System, the 
Waco Mammoth National Monument (monument), near the city of Waco, 
Texas. The bill directs the Secretary of the Interior (Secretary) to 
administer the monument in accordance with the laws applicable to the 
National Park System and to enter into cooperative agreements with 
Baylor University and the City of Waco to manage the monument. The bill 
also authorizes the Secretary to acquire land for the monument from 
willing sellers with donated or appropriated funds, transfer from 
another federal agency, or exchange. Lands owned by the State of Texas, 
or its political subdivisions, may only be acquired by donation or 
exchange. Finally, the Secretary is authorized to construct facilities 
on non-federal land within the boundaries of the monument and to 
complete a General Management Plan for the monument within three years 
after funds are made available.
    The National Park Service (NPS) was directed to complete a Special 
Resource Study (SRS) of the Waco Mammoth site by Public Law 107-341. 
This study evaluated a 109-acre site owned by the City of Waco and 
Baylor University and found that the site meets all the criteria for 
designation as a unit of the National Park System.
    The Waco Mammoth Site area is located approximately 4.5 miles north 
of the center of Waco, near the confluence of the Brazos and the Bosque 
rivers. Baylor University has been investigating the site since 1978 
after hearing about bones emerging from eroding creek banks that led to 
the uncovering of portions of five mammoths. Since then several 
additional mammoth remains have been uncovered - making this the 
largest known concentration of mammoths dying from the same event.
    The discoveries have received international attention and many of 
the remains have been excavated and are in storage or still being 
researched. The SRS determined that the combination of both in situ 
articulated skeletal remains and the excavated specimens from the site 
represents the nation's first and only recorded nursery herd of 
Pleistocene mammoths. The resource possesses exceptional interpretive 
value and superlative opportunities for visitor enjoyment and 
scientific study.
    From the time the site was discovered until the present, the 
University and the City have managed the site responsibly. The SRS 
examined a range of proposed options for the NPS involvement at the 
site. We believe that NPS joining in partnership with the city of Waco, 
Baylor University, and others would offer the most effective and cost-
efficient management of this unique resource.
    If established based upon the management alternative recommended in 
the SRS, we estimate that the costs to create the monument would 
include $8.1 million from the identified partners to develop the 
facilities at the monument with the NPS providing an additional 
$600,000 for enhanced interpretive media. Total operational costs are 
estimated to be $645,000 with the NPS contributing approximately 
$345,000 for NPS staffing of four full-time equivalent positions and 
associated supplies, materials, and equipment. All funds are subject to 
NPS priorities and the availability of appropriations.
    We recommend that Section 3 of S. 625 be amended to include the map 
reference for the monument. The map title is ``Proposed Boundary Waco-
Mammoth National Monument'', the map number is ``T21/80,000'', and the 
date is ``April 2009''.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or other members of the Subcommittee may 
have.
                                 s. 853
     Mr. Chairman, thank you for the opportunity to appear before your 
committee today to discuss the views of the Department of the Interior 
on S. 853, a bill to amend the Wild and Scenic Rivers Act by 
designating additional segments and tributaries of the White Clay Creek 
in Delaware and Pennsylvania as components of the National Wild and 
Scenic Rivers System.
    The Department supports enactment of this legislation with one 
technical amendment.
    S. 853 would designate nine additional miles of segments and 
tributaries of the White Clay Creek as part of the National Wild and 
Scenic Rivers System, to be administered by the Secretary of the 
Interior (Secretary). The additional tributaries will be managed in 
accordance with the ``White Clay Creek and Its Tributaries Watershed 
Management Plan'' (amended Summer 2001) with the Secretary coordinating 
the White Clay Creek Watershed Management Committee.
    In December 1991, Congress directed the National Park Service to 
undertake a study of the headwaters of the White Clay Creek in the 
Commonwealth of Pennsylvania to its confluence with the Christina River 
in the State of Delaware. The study was also to include the East, West, 
and Middle Branches, Middle Run, Pike Creek, Mill Creek and other 
tributaries of the White Clay, as identified by the Secretary, to 
determine their eligibility for inclusion in the National Wild and 
Scenic Rivers System. The study was to be done in cooperation and 
consultation with various federal, state, regional, and local 
governments and affected landowners. In addition, a river management 
plan was to be prepared that would provide recommendations as to the 
protection and management of the White Clay Creek and its tributaries. 
The plan was to outline roles for the state and local governments and 
affected landowners to play in the management of the White Clay Creek 
as a designated component of the National Wild and Scenic Rivers 
System.
    In 1998, a watershed management plan was prepared that contained 
six goals for management of the White Clay Creek and its tributaries. 
These goals include improving and conserving water quality and 
quantity, and conserving open space, woodlands, wetlands, and geologic 
features. The plan was done cooperatively and calls for a management 
framework for the White Clay Creek and its tributaries that relies 
heavily on local land use decisions.
    In 1999, the National Park Service issued the ``White Clay Creek 
and Its Tributaries National Wild and Scenic River Study Draft 
Report.'' In the report, the National Park Service found that the 
majority of the river segments identified in the study met the 
eligibility requirements of the Wild and Scenic Rivers Act by virtue of 
their free-flowing condition and presence of one or more outstandingly 
remarkable resource values. For example, the watershed includes open 
space and recreational opportunities for hiking, jogging, canoeing and 
fishing; in fact, the White Clay Creek is the most heavily stocked and 
heavily used put-and-take trout stream in the State of Delaware. In 
2000, Public Law 106-357 designated 190 miles of the White Clay Creek 
and its tributaries as components of the National Wild and Scenic River 
System.
    The study report also identified additional segments and 
tributaries, which are the subject of S. 853, that would be eligible 
and suitable for designation. These segments are eligible and suitable 
because they are free-flowing streams with outstandingly remarkable 
values including the Cockeysville marble geologic formation that 
supports a high-yielding aquifer, a major source of drinking water, and 
threatened and endangered species including the Muhlenberg's (bog) 
turtle and cerulean warbler. However, these segments were removed from 
consideration because the Delaware River Basin Commission was looking 
at these areas as possible locations for reservoirs under their 
comprehensive plan. In addition, there was not demonstrated municipal 
support for such a designation, a requirement under the Wild and Scenic 
Rivers Act.
    In 2007, these segments and tributaries were removed from the 
comprehensive plan of the Delaware River Basin Commission. In addition, 
the New Garden Township in Pennsylvania, the only affected 
municipality, passed a resolution in support of the designation. With 
these two issues resolved, the Department now supports these segments, 
totaling nine miles, be added to the National Wild and Scenic River 
System.
    The Department would like to work with the committee to make a 
technical correction to a map reference in Section 3 of the bill.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                                s. 1053
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1053, a bill to amend the National Law 
Enforcement Museum Act to extend the termination date.
    The Department has no objection to this legislation. S. 1053 would 
amend section 4(f) of Public Law 106-492 to authorize construction of 
the Museum to begin up to 13 years after the date of enactment of that 
law. If amended, the authority to construct the Museum would terminate 
on November 9, 2013.
    Public Law 106-492 authorizes the National Law Enforcement Officers 
Memorial Fund (the Fund) to design, plan, construct and maintain a 
National Law Enforcement Museum on land within U.S. Reservation 7 in 
the District of Columbia, south of the National Law Enforcement 
Officers Memorial. Reservation 7 is one of the original public 
reservations of the City of Washington. With the exception of the 
Memorial, Reservation 7 has been under the jurisdiction of the District 
of Columbia since 1970. Reservation 7 is also listed in the National 
Register of Historic Places as a significant element of the L'Enfant 
Plan.
    The Act for the new museum requires that the design be approved by 
the Secretary of the Interior, the National Capital Planning Commission 
(NCPC), and the U.S. Commission of Fine Arts (CFA). Over the past few 
years, the Fund has coordinated extensively with the National Park 
Service (NPS), on behalf of the Secretary of the Interior, as well as 
the courts, the NCPC, CFA, the D.C. State Historic Preservation Officer 
(DC SHPO), and the District of Columbia government. When the Department 
appeared before this Committee to testify on S. 1438, a bill to 
establish a National Law Enforcement Museum on Federal land in the 
District of Columbia, on April 27, 2000, we were concerned, from an 
historic preservation standpoint, about the impact of locating a new 
building within this complex of six historic public buildings dating 
from 1820 to 1939. However, the careful design and placement of the 
museum has resolved these concerns, as evidenced by the execution of a 
Memorandum of Agreement on June 23, 2008, by the DC SHPO, the Fund, the 
NPS, and NCPC, fulfilling the requirement of Section 106 of the 
National Historic Preservation Act. Site and building plans for the 
museum were approved by the CFA on May 24, 2008, the NCPC on August 28, 
2008. The plans were prepared according to the requirements of the 
National Law Enforcement Museum Act and are the result of agreements on 
perimeter security, shared access to the loading facility, the design 
of the shared plaza, and a pavilion design that is compatible with the 
Courts' historic buildings at Judiciary Square.
    The Act prohibits the Fund from beginning construction of the 
museum unless the Secretary of the Interior ``determines that 
sufficient amounts are available to complete construction of the 
Museum.'' The Secretary currently cannot make this determination. On 
February 11, 2009, the Fund announced a new time line and budget for 
the project which was approved by its Board of Directors during the 
week of February 2, 2009. The announcement proposed a new start date in 
the fall of 2010, with an anticipated completion of mid-2013. Cost 
savings measures will reduce the construction budget from $80 million 
to $51 million, with a corresponding reduction in size from 100,000 
square feet to 55,000 square feet and a reduction in the number of 
floors from four to three. The Fund has advised that these changes will 
not impact the above-ground features of the museum but will require the 
re-design of the underground spaces. The reduced footprint will 
eliminate the need to relocate a number of utilities and will thereby 
diminish the potential impact to the adjacent Law Enforcement Officers 
Memorial.
    The Fund has also advised that the changes will not diminish the 
design or the visitors' experience; however, the revised plans have not 
yet been submitted for review. Though the NPS will not own, operate, or 
maintain the museum, we look forward to reviewing the revised design as 
required by the National Law Enforcement Museum Act.
    Mr. Chairman, this concludes my prepared testimony on S. 1053, and 
I would be happy to answer any questions you may have.
                                s. 1117
     Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on S. 
1117, the Upper Connecticut River Partnership Act, which would 
authorize the Secretary of the Interior to provide assistance in 
implementing cultural heritage, conservation and recreational 
activities in the Connecticut River watershed of the States of New 
Hampshire and Vermont.
    The Department appreciates the efforts of the Connecticut River 
Joint Commissions and their exemplary work in the upper Connecticut 
River watershed. Many local, state, regional and federal organizations 
have worked in partnership with the Commissions for many years to 
support numerous efforts to improve water quality, promote sustainable 
tourism, protect unique natural and rural resources, and improve 
recreational opportunities.
    While we support activities that conserve and enhance the cultural, 
environmental and recreational resources of the upper Connecticut River 
watershed, the Department cannot support S. 1117. There are existing 
funding mechanisms within the National Park Service, U.S. Fish and 
Wildlife Service, and possibly other federal agencies that can foster 
the type of partnership efforts envisioned in this bill. For example, 
technical assistance is available through the National Park Service's 
Rivers, Trails, and Conservation Assistance Program, while grants are 
available through the U.S. Fish and Wildlife Service's North American 
Wetlands Conservation Act Grants Program.
    The upper Connecticut River watershed encompasses 41 percent of the 
state of Vermont's total area and 33 percent of the state of New 
Hampshire's. It has been the subject of many past studies, including 
National Park Service (NPS) studies, which document its natural and 
cultural resources. The upper Connecticut River watershed was 
recognized by Congress in 1991 as part of the Silvio O. Conte National 
Fish and Wildlife Refuge; the refuge manages the Nulhegan Basin unit 
and sponsors education centers at the Montshire Museum in Norwich, 
Vermont as well as in Colebrook, New Hampshire and Turner's Falls, 
Massachusetts. The watershed also contains units of the National Park 
System including Marsh-Billings-Rockefeller National Historical Park, 
Saint Gaudens National Historic Site, and sections of the Appalachian 
Trail. The NPS Rivers, Trails and Conservation Assistance Program field 
office in Woodstock, Vermont has projects in the watershed, and the 
Hydropower Relicensing and Wild & Scenic River programs serve the 
region from the Northeast Region's office. The Connecticut River was 
designated an American Heritage River in 1998, and is home to the 
Connecticut River Scenic Byway, designated by the States of Vermont and 
New Hampshire in 1999. In 2005, it was also designated as a National 
Scenic Byway.
    The Connecticut River Joint Commissions was formed in 1989, uniting 
separate commissions that had been formed by the States of Vermont and 
New Hampshire previously. In 1997, working with 5 bi-state local 
subcommittees, they produced the Connecticut River Corridor Management 
Plan. From 1992 to 1999 the NPS provided $1.325 million to the 
Connecticut River Joint Commissions, as well as technical assistance, 
for work in the upper Connecticut River watershed. The NPS will 
continue to support and work with the Joint Commissions.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks. I will be happy to answer any questions 
you or other committee members may have regarding this bill.
                         h.r. 1694 and s. 1168
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 1168 
and H.R. 1694, to amend Sec. 7301 of the Omnibus Public Land Management 
Act of 2009 (Public Law 111-11) to authorize the acquisition and 
protection of nationally significant battlefields and associated sites 
of the Revolutionary War and the War of 1812 under the American 
Battlefield Protection Program.
    The Department supports S. 1168 and H.R. 1694 with an amendment to 
include language that passed the House on April 21, 2009.
    In March 2008, the National Park Service transmitted the Report to 
Congress on the Historic Preservation of Revolutionary War and the War 
of 1812 Sites in the United States, which identified and determined the 
relative significance of sites related to the Revolutionary War and the 
War of 1812. The study assessed the short and long-term threats to the 
sites. Following the success of the 1993 Civil War Sites Advisory 
Commission Report on the Nation's Civil War Battlefields, this study 
similarly provides alternatives for the preservation and interpretation 
of the sites by Federal, State, and local governments or other public 
or private entities.
    The direction from Congress for the study was the same as for a 
Civil War sites study of the early 1990s. As authorized by Congress for 
this study, the National Park Service looked at sites and structures 
that are thematically tied with the nationally significant events that 
occurred during the Revolutionary War and the War of 1812. The result 
was a more thorough survey that represents twice the field effort 
undertaken for the Civil War study.
    Building upon this recent study, S. 1168 and H.R. 1694 would create 
a matching grant program for Revolutionary War and the War of 1812 
sites that closely mirrors a very successful matching grant program for 
Civil War sites. The Civil War acquisition grant program was first 
authorized by Congress in the Civil War Battlefield Protection Act of 
2002 (Public Law 107-359), and was recently reauthorized by the Omnibus 
Public Land Management Act of 2009 (Public Law 111-11).
    That grant fund has been tremendously successful in allowing local 
preservation efforts to permanently preserve Civil War battlefield land 
with a minimum of Federal assistance. Grants of $26.3 million from the 
National Park Service have leveraged a total of $55.3 million in 
nonfederal funding. To date, the grant program has assisted in the 
permanent protection of 13,906 acres at 54 Civil War battlefields. In 
FY 2009, $4 million was appropriated for this program. The President's 
FY 2010 Budget also includes a request for $4 million.
    With the release of the Report to Congress on the Historic 
Preservation of Revolutionary War and the War of 1812 Sites in the 
United States, communities interested in preserving their Revolutionary 
War and the War of 1812 sites can take the first steps similar to what 
the Civil War advocates did 15 years ago. If established, this new 
grant program can complement the existing grant program for Civil War 
battlefields and, in doing so, become a benefit to the American people 
by providing for the preservation and protection of a greater number of 
sites from the Revolutionary War and War 1812. All funds are subject to 
NPS priorities and the availability of appropriations
    The Department recommends an amendment to S. 1168 and H.R. 1694 to 
include language that passed the House on April 21, 2009. In the 
introduced version of H.R. 1694, there was a $10 million annual 
authorization for the Revolutionary War and War of 1812 acquisition 
grant program. This funding level was separate and in addition to the 
$10 million annual authorization for the existing Civil War acquisition 
grant program. On April 21, 2009, the House-passed version of H.R. 1694 
included language that provided a combined funding of $20 million for 
both acquisition grant programs in each of fiscal years 2010 through 
2014. However, we understand that this language was inadvertently 
dropped by the House legislative clerk when the bill was engrossed and 
sent to the Senate.
    When the bill was introduced in the Senate as S. 1168, it also did 
not contain the authorization language for the acquisition grant 
program and we understand this was an inadvertent error on the 
sponsor's part. We recommend adding the House-passed funding language. 
We also support the increased authorization level as there are two 
separate constituencies for these programs. The language of the 
amendment is attached.
     Mr. Chairman, this concludes my testimony. I would be pleased to 
respond to any questions from you and members of the committee.
    Proposed amendment to H.R. 1694 and S. 1168: H.R. 1694, as 
engrossed by the House: On page 3, after line 16, add the following: 
``(8) In paragraph (8) (as so redesignated), by striking `$10,000,000 
for each of fiscal years 2009 through 2013' and inserting `20,000,000 
for each of fiscal years 2010 through 2014'.''
    S. 1168, as introduced: On page 3, after line 14, add the 
following: ``(8) In paragraph (8) (as so redesignated), by striking 
`$10,000,000 for each of fiscal years 2009 through 2013' and inserting 
`20,000,000 for each of fiscal years 2010 through 2014'.''

    Senator Udall. Thank you, Ms. Stevenson. I would like to 
direct some questions your way. Then I'll turn to Senator 
Shaheen if she has questions.
    Let me start with the last piece of legislation that you 
just summarized. You talk about the unique circumstances 
surrounding the lease proposal, the maximum lease term of 40 
years which is twice as long as the maximum term for a National 
Park concession contract. If 20 years is long enough to allow 
park concessioners to obtain sufficient financing for what are 
in many cases much larger financial obligations than those 
required at Caneel Bay. Why is this 40-year lease term 
necessary?
    Ms. Stevenson. The lessee or the potential lessee, has been 
consulting with financing institutions. It's our understanding 
that financing in the Virgin Islands is a very different kettle 
of fish than it is other places, particularly because of the 
risk factors associated with extreme weather. So while we would 
negotiate down from 40 years, we anticipate that it will be 
pretty close to a 40-year lease, that it is necessary in order 
for them to secure their financing.
    Senator Udall. When you say extreme weather are you 
speaking of hurricanes?
    Ms. Stevenson. Yes, sir.
    Senator Udall. Any other weather events or hurricanes the 
main concern?
    Ms. Stevenson. That's the main one.
    Senator Udall. Main concern. Thank you for that 
clarification. Let me turn to the Connecticut River Watershed 
since I think that's the bill on the list with which you have 
the most concerns.
    Your testimony indicates that the DOI supports the 
activities to protect the Connecticut River Watershed that are 
authorized in the bill. But you don't support the bill itself 
because there are other funding authorizations available. Can 
you help me clarify the Department's concerns with the bill?
    Is this a question of the watershed resources not meriting 
Federal funding or rather that there are already appropriate 
authorities to provide Federal assistance?
    Ms. Stevenson. It's the latter, Mr. Chairman.
    Senator Udall. It's the latter, alright.
    Ms. Stevenson. We have provided assistance, a small amount 
since the year 1992 through 1999 in about an average of 
$100,000 a year. The resources are very significant. However, 
we realize that there are other kinds of technical assistance 
available to this area.
    We've been giving them technical assistance. Fish and 
Wildlife, NOAA, EPA and other agencies have resources 
available. This would establish a unique grant program just for 
the Connecticut River Watershed that would stand on its own. We 
just don't think that's an appropriate situation.
    Senator Udall. Let me direct a follow up question. Then you 
may have responded in your previous answer. But many of the 
bills that we're considering today could be addressed using 
other funding authorizations. For example, the Harriet Tubman 
bill authorizes grants to the State of Maryland for land 
acquisition through that could also be funded through the LWCF.
    Why do you support those provisions, but oppose this 
authority?
    Ms. Stevenson. The other areas that we're talking about 
today in particular are being designated as units of the 
National Park System. So that makes the situation quite 
different than a generalized area of a river valley without any 
specific designation.
    Senator Udall. I'd be interested in what Senator Shaheen 
has to say when I turn to her since the Connecticut River plays 
an important part in her State as well. But let me go to the 
Revolutionary War and War of 1812 Battlefield sites, if I 
might. My understanding is the existing American Battlefield 
Protection Program works closely with the Civil War 
Preservation Trust with respect to protecting Civil War 
Battlefields.
    Is there a similar organization that you anticipate working 
with for the Revolutionary War and the War of 1812 
Battlefields?
    Ms. Stevenson. We're not aware of any organizations that 
exist that are exactly like the one for the Civil War. 
Different people have expressed--different groups have 
expressed some interest. But they haven't been coalesced into a 
single group.
    But we're pretty sure that with funds available that we'll 
see groups come together and want to match the Federal funds to 
be able to preserve the land.
    Senator Udall. I think Senator Burr's family has a 
connection to the Revolutionary War. I'm going to speak with 
him at some other point and ask him about his interests there.
    On the National Law Enforcement Museum extension authority, 
do you have any opinion on the likelihood that sufficient 
funding will be achieved in the three additional years so that 
additional extensions wouldn't be necessary?
    Ms. Stevenson. The fund has expressed confidence that they 
will have the money and that they will not need any further 
extensions.
    Senator Udall. So you----
    Ms. Stevenson. So we're relying on their word.
    Senator Udall. On their--Finally let me turn to Waco 
Mammoth National Historical Park. I understand that public 
access is restricted at this time. If it's designated as a unit 
of the National Park System, do you anticipate greater access 
for the public or do you think that that access with still need 
to be limited?
    Ms. Stevenson. The access is limited now in order to 
protect the remains. We anticipate with technical assistance 
and some construction and protection that we'll be able to open 
it up for much more access for the visitor.
    Senator Udall. Ok. Thank you for that clarification. I turn 
to Senator Shaheen.
    Ms. Stevenson. Thank you.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you for 
being here. I appreciate the good work that the National Park 
Service does.
    I have to say I do disagree with you, however, with respect 
to S. 1117 which would address the Connecticut River Watershed, 
as you've indicated. You pointed out that there are programs 
available that would provide funding for some of the critical 
work that needs to be done in the watershed. But I think it's 
important to point out that while these programs, you know, the 
Fish and Wildlife Service's, North American Wetlands 
Conservation Act Program is one of those. The National Park 
Service's Rivers, Trails and Conservation Assistance Program is 
one of those.
    While they are available to communities, unfortunately over 
the last two decades they funded very few projects. There is so 
much more work that needs to be done. There has been a lot of 
effort that we will hear about in a few minutes on both the 
Vermont and New Hampshire side of the Connecticut River to 
involve the communities and to address the work that needs to 
be done there.
    Unfortunately the local efforts and the State involvement 
has not been able to deal with the long term needs that exist. 
So it's my hope that once we hear from the next panel that they 
will, very clearly, show why it's so important that we get this 
legislation done. Again, I appreciate the work that you all do, 
but this is one where I think the merits of the project does 
require a different outcome.
    Thank you, Senator.
    Senator Udall. Thank you, Senator Shaheen. I have no more 
questions. I would ask that we keep the record open and if we 
have additional questions we'll direct them to you, Ms. 
Stevenson and the Department of the Interior.
    Senator Udall. Thank you for taking the time to come up the 
hill today.
    Ms. Stevenson. Thank you, Mr. Chairman.
    Senator Udall. Thank you. If the next panel would take 
their seats we'll proceed to hear your testimony.
    Good afternoon. Thank you for joining us. I'm going to 
introduce Ms. Farrell briefly. I'm going to turn to Senator 
Shaheen to introduce Ms. Francis. Then, Ms. Farrell, we'll come 
back to you for your testimony.
    So I want to welcome you. You're Mara Farrell. You are the 
co-founder of the Fishkill Historical Focus from Fishkill, New 
York. Welcome.
    Ms. Farrell. Thank you.
    Senator Udall. We look forward to your testimony. I'll turn 
to Senator Shaheen to introduce Ms. Francis.
    Ms. Farrell. Thank you. Thank you very much.

    STATEMENT OF HON. JEANNE SHAHEEN, U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman. I'm 
especially pleased to have a fellow Granite Stater, Sharon 
Francis, here as part of this panel. I'm pleased not just to 
have someone from New Hampshire, but to have someone who has 
Sharon's extensive and very impressive background working on 
environmental issues in New Hampshire.
    Sharon serves as the Executive Director of the Connecticut 
River Joint Commissions and is here to testify in support of 
the Upper Connecticut River Partnership Act. She has been with 
the Commissions since its founding in 1989 and is a tireless 
advocate for the protection of New England's largest river. Her 
service and dedication to the protection of this important 
economic, environmental and cultural natural resource is a real 
inspiration for us all.
    Mr. Chairman, I have worked with Sharon during my years as 
Governor. Have long supported the protection of the Connecticut 
River. I'm proud to be an original co-sponsor of the Upper 
Connecticut River Partnership Act along with Senator Leahy, 
Senator Gregg and Senator Sanders.
    As Governor I worked with then Governor of Vermont, Howard 
Dean, environmental organizations and community groups along 
the upper reaches of the Connecticut River on a settlement 
agreement with New England Power Company to protect this 
important natural resource. The agreement that Governor Dean 
and I worked on led to the creation of a mitigation fund to 
restore, protect, and enhance the Connecticut River ecosystem 
affected by the Fifteen Miles Falls, hydroelectric project. 
Since 1997, some $5 million in projects have been funded and 
12,000 acres of land have been protected in permanent 
conservation under this program.
    However, despite all of this progress more needs to be done 
to protect this important resource. The Upper Connecticut River 
Partnership Act establishes a grant and technical assistance 
program to carry out conservation, restoration, as well as 
historic and cultural preservation efforts in the Upper 
Connecticut River Watershed. Projects funded through this 
cooperative program will protect water quality, fish and 
wildlife habitat, promote education and support historical 
preservation efforts.
    I believe this legislation can serve as a very important 
model because it would have not only the States and the 
communities along the river working in partnership. But it 
would have the Federal Government joining with them in an 
effort at all levels to protect this wonderful resource. So I 
want to again, welcome Sharon to the committee.
    I look forward to your testimony and to doing everything I 
can to help your efforts to preserve the historic and amazing 
Connecticut River. Thank you.
    Senator Udall. Ms. Francis, with that introduction I'm 
inclined to offer you the opportunity to share your testimony 
now, if you're ready. I'm sure Ms. Farrell would not object.

STATEMENT OF SHARON F. FRANCIS, EXECUTIVE DIRECTOR, CONNECTICUT 
            RIVER JOINT COMMISSIONS, CHARLESTOWN, NH

    Ms. Francis. Thank you very much, Senator Shaheen, Senator 
Udall. This moment is really a summit among many in my 50 year 
professional career. I used to try to hide how long I'd been 
doing it. I've decided well, let's put it out front, 50 years 
professional career of safeguarding the environment of our 
country.
    I want to share with you the outline of a unique 
organization which is the Connecticut River Joint Commissions. 
We have been very, very successful. We have the right model, I 
believe. I want to give you an opportunity to see what that 
model is and make your own judgment about it.
    We are twin watershed advisory commissions on the part of 
the State of New Hampshire and the State of Vermont, set up by 
the legislatures of the two States. In response to public in 
the river valley saying we an institutional home. The 
legislatures gave the Connecticut River, not a great big 
department in agencies, but a very modest pair of commissions.
    We have a small government philosophy up in Northern New 
England. It seems to work pretty well because it draws out so 
much help, inspiration, energy on the part of the public 
itself. The two commissions formed a non-profit organization 
which is The Connecticut River Joint Commissions.
    Each State Governors, legislatures, appoint 15 river 
commissioners. Behind those 15 river commissioners are local 
subcommittee members appointed by the select boards or city 
councils of their communities. Everything we do is based on 
plans developed by these grassroots people. So it is very much 
bottoms up. It very much is high caliber, well informed 
planning.
    I want to mention a moment. Senator Udall, I think you will 
appreciate this, a moment of history that I share with the 
National Park Service. That goes back to 1966 when Senator 
Abraham Ribicoff, before the predecessors of this committee, 
proposed a national recreation area study of the whole length 
of the Connecticut River.
    Indeed he authored the legislation. It was duly adopted. 
The study was conducted.
    My boss at the time, Stewart Udall, thought it was 
wonderful because of instead of one or two nice, Federal 
national recreation areas. It was a string of pearls, some 
national recreation areas, some scenic waterways, tour ways, 
roadways on both sides of the river, some Federal recreation 
areas. It was just very imaginative, creative, forward 
thinking.
    I worked with the Secretary on his remarks at the time it 
came out. He called it a new era, a new model. It was from the 
perspective of Washington.
    From the perspective of Northern Vermont and New Hampshire 
it was bad. It looked like some great, big, green Federal 
monster that was going to swallow up people's land. It did not 
go over. They shot it down. If you don't learn the lessons of 
history, of course, you're condemned to repeat them.
    I did not forget that lesson because it seemed to me, 
something was being said there. So in 1991 when the Silvio O. 
Conte Fish and Wildlife Refuge came to the Connecticut River 
Valley we now existed, the Connecticut River Joint Commissions 
existed. We were rooted very, very, well in the local 
leadership of that watershed. We said to the Fish and Wildlife 
Service, let us chair your meetings. Let us be your front and 
facilitate this discussion of what habitat should be preserved, 
where and why.
    Don't think there aren't very knowledgeable wildlife and 
fisheries persons up in very small towns of New Hampshire and 
Vermont, because there are. They know those places on a day to 
day basis. So indeed, by being able to provide that bridge for 
the Conte Refuge we were able to help them come up with a very 
good plan. The opposition just melted away. It no longer had 
teeth.
    We've done other things with Federal programs. We were 
successful in getting the Connecticut River designated as an 
American Heritage River in the Clinton administration, one of 
14 nationally, no small feat. We have gotten it designated a 
National Scenic Byway. A lot of the tourism related, heritage 
tourism work that we're doing is funded through the National 
Scenic Byway program.
    What I want to emphasize is that people in our part of the 
country really like to emphasize a local approach to resource 
stewardship. They're reluctant to sign on to a large Federal 
program. But they're willing to engage and welcome support and 
help from Federal agencies, as long as they feel that their 
views are going to be able to guide what happens.
    Senator Shaheen mentioned how some of the programs touted 
by the National Park Service really have had historically very 
limited application in our area. Yes, we can have one or two 
projects assisted by the Rivers and Trails Conservation 
Assistance Program. They're good folks and they do a good job 
and they have helped us.
    We don't want one or two good projects. We want hundreds 
and hundreds of good projects. We don't necessarily need the 
National Park Service to create good projects because there is 
the talent, the knowledge, the commitment right in our local 
communities to do that.
    We've worked a lot with NOAA. But the funding for their 
community based restoration programs is now going elsewhere. It 
isn't available to us.
    So I think that we've talked with congressional staff about 
what might be an appropriate home for us. We've certainly 
considered NOAA. We work a lot with EPA. Both of the State's 
environmental agencies treat us as someone they fund every year 
for EPA related work.
    But we really feel that the National Park Service has the 
elasticity in its overall authorities and mandates. It's grown 
over the years to do a variety of things. National recreation 
areas were a big revolution at one time. Now, of course, 
they're Wild and Scenic Rivers and there are Heritage Corridors 
and so many other designations.
    We feel our 20-year track record--I couldn't have 
necessarily stood before you 20 years ago and made this 
proposal because I wouldn't have been able to show you that we 
can do it. But I can show you that we can do it. We have done 
it. We are doing it.
    The local units of the National Park Service, St. Gaudens 
National Historic Site and Marsh-Billings Rockefeller National 
Park, like us very much. We work very much with them. I think 
the Federal National Park Service people would like to have us 
as colleagues too.
    When you think about what the Park Service said here today, 
they said almost the same thing in 2005 when a hearing was held 
on this legislation, almost the same thing. Yet the Senate 
passed that legislation for the Connecticut River Partnership 
Act. It did not however pass in the House. There just wasn't 
any leadership to bring it forward.
    So in essence we're coming back to the Senate. I'm very 
glad we're coming back to your committee because your knowledge 
and commitment is enormous. I think you can understand the 
kinds of things I'm talking about.
    Senator Udall. Ms. Francis? If you might, and I thank you 
for those kind words.
    Ms. Francis. Yes.
    Senator Udall. If you might, can you finish up and then 
we're going to come back to you for some questions. So I want 
to have a chance to turn to Ms. Farrell----
    Ms. Francis. Yes, absolutely.
    Senator Udall [continuing]. For her testimony.
    Ms. Francis. Very much so. I would only say that my 
prepared testimony talks a lot about the partnership program. 
How we've operated. What we funded with it.
    So if you want some of the details about it, it's in the 
testimony.
    [The prepared statement of Ms. Francis follows:]
     Prepared Statement of Sharon F. Francis, Executive Director, 
          Connecticut River Joint Commissions, Charlestown, NH
    Senator Udall and Members of the Subcommittee, this day is a summit 
moment in my 50 year professional career of safeguarding the 
environment. It gives me opportunity to share with you the outline of a 
unique organization that is notably successful in fostering widespread 
conservation achievements throughout our bi-state 7,000 square mile 
watershed.
            role of the connecticut river joint commissions
    The Connecticut River Joint Commissions, twin watershed advisory 
commissions established by the Legislatures of New Hampshire and 
Vermont, have guided growth and development in the upper watershed of 
New England's largest river for the last 20 years. Essential to their 
extraordinary success has been their focus on local stewardship and 
citizen empowerment.
    Robert Frost in his poem ``New Hampshire,'' described New Hampshire 
and Vermont as a pair of states united by a river, and he gave verse to 
the complementary happenstance of two political jurisdictions sharing 
the same geographic feature. The Connecticut River unites New Hampshire 
and Vermont for 275 miles. Twenty years ago the people of the watershed 
called upon the two state legislatures to create an institutional home 
for the bi-state River.
    The result was two state commissions, an approach that fits with 
the small government preference in northern New England. The 
commissions share a single mandate to preserve and protect the 
resources of the Connecticut River Valley, guide growth and 
development, and cooperate with the other states in doing so. Governors 
or legislators appoint the fifteen river commissioners from each state. 
The commissions formed a nonprofit organization, the Connecticut River 
Joint Commissions in 1989, so they could share office, staff, fund 
raising, and program administration.
    CRJC has its roots in the river communities, since behind the 
thirty active volunteer commissioners, stand local subcommittee 
representatives of the 52 riverfront towns who are appointed by their 
select boards and city councils and who have worked together, across 
the river and across gaps in self-interest, to reach consensus on plans 
for wise river management.
    The upper Connecticut River watershed encompasses 41 percent of the 
state of Vermont's total area and 33 percent of the state of New 
Hampshire's. It has been the subject of many past studies, including 
National Park Service studies, which document its natural and cultural 
resources. The Connecticut River watershed was recognized by Congress 
in 1991 as the Silvio O. Conte National Fish and Wildlife Refuge, and 
as an American Heritage River in 1998.
history of the national park service and other federal agencies in the 
                        connecticut river valley
    The Department of the Interior's National Park Service has a long 
history in the Connecticut River Valley that goes back to 1966 when 
Senator Abraham Ribicoff of Connecticut testified before the 
predecessor to this Committee, and authored legislation calling for a 
national recreation area study the length of the River. When the study 
was completed, my boss, Secretary of the Interior, Stewart Udall, was 
especially pleased that it called for a ``string of pearls,'' some 
sites to be protected by the National Park Service as national 
recreation areas, others as scenic rivers, a scenic tourway bordering 
the river, and other sites under stewardship of the states. This was 
forward-thinking cooperative conservation, and I worked with the 
Secretary on his remarks, welcoming a new era, a new model.
    From our perspective in Washington at the time, the Connecticut 
River National Recreation Area Study offered an admirable interplay of 
federal and state roles. From the perspective of landowners in northern 
Vermont and New Hampshire, however, the proposal looked only like a 
Green Federal Monster intent upon devouring their lands. They wanted no 
part of it, and they effectively shot it down.
    Not many years later, after the popular Massachusetts Congressman 
(and fisherman) Silvio O. Conte passed on, Congress established in 1991 
a national fish and wildlife refuge in his name in the Connecticut 
River watershed. The exact areas to be protected were to be established 
by study. The people up north were pretty sure the idea again was a bad 
one
    The new ingredient this time was the Connecticut River Joint 
Commissions. We were accepted and respected locally, and we convinced 
U.S. Fish & Wildlife Service staff to let us chair meetings and obtain 
local expertise and recommendations. Apprehension about the federal 
guvmn't faded. Ultimately, the Conte Refuge was not demonized, and over 
the years the Connecticut River Joint Commissions have been a bridge 
between the federal refuge and local landowners, fishermen, bird 
watchers, land trusts, and others who implement the refuge purposes. 
Currently, the U.S. Fish and Wildlife Service is drafting a new 
Comprehensive Conservation Plan for the Refuge, and CRJC has played a 
major role in stimulating public participation in that effort.
    CRJC led the upper watershed effort toward successful designation 
of the Connecticut River as one of 14 American Heritage Rivers in 1998. 
Most recently, CRJC sponsored successful designation of the Connecticut 
River Byway as a National Scenic Byway in 2005. CRJC has worked in 
partnership with many local, state, regional and federal organizations 
to support these agencies' efforts to protect the cultural heritage of 
this large watershed, improve its water quality, promote sustainable 
tourism, protect unique natural and rural resources, and improve 
recreational opportunities.
    We promote visitation through the Connecticut River Byway, to the 
National Park Service's installations at Marsh-Billings-Rockefeller 
National Historical Park in Vermont, Saint Gaudens National Historic 
Site in New Hampshire, and sections of the Appalachian Trail in both 
states. CRJC is promoting interest in the 75 National Register Historic 
Districts in the region by carrying the historic data about each on our 
website and promoting this heritage to residents and visitors through a 
series of history itineraries we are developing for the Byway.
    All of these experiences have taught CRJC that northern New England 
prefers a local approach to resource stewardship. Northern New England 
residents have demonstrated their reluctance to sign on to large 
federal programs time and time again, but are willing to engage with a 
more trusted, home-grown organization. Thus CRJC is better qualified to 
deliver a broader range of assistance with more impact than the federal 
programs that may be aimed in similar directions.
    For example, while technical assistance is available through the 
National Park Service's Rivers, Trails, and Conservation Assistance 
Program, this program has conducted only a small handful of projects in 
the Connecticut River valley during the 20 years CRJC has been active. 
While grants are available through the North American Wetlands 
Conservation Act Grants Program, they are well out of reach of nearly 
all the watershed's communities and only two such grants have been made 
in the region in the last 20 years. While CRJC's Byway has been able to 
put the Department of Transportation's surface transportation program 
to good use to promote heritage tourism, CRJC involvement has been 
essential for execution. Funding for the National Oceanic and 
Atmospheric Administration's (NOAA) community-based restoration 
programs has been directed elsewhere, despite years of effective 
support from CRJC, and is no longer available to achieve river goals.
    CRJC's approach, rather than promote large government participation 
in a few projects, has been to ensure grassroots action on a broad 
scale, making scarce federal dollars accessible to a wider constituency 
and leveraging them with the energy of local inspiration and 
volunteerism. The end result is an inspired citizenry better equipped 
to address real issues and opportunities at home.
               the connecticut river partnership program
    Shortly after establishment of the Connecticut River Joint 
Commissions, our commissioners and knowledgeable staff from the 
Congressional delegation began exploring how to fund a grant program 
that could address the pent-up agenda of projects that could benefit 
the river and the region. The Rivers and Trails Conservation Assistance 
Program of the National Park Service welcomed our initiative and worked 
with us for several years, though ultimately we parted company, as they 
preferred projects carried out by their own staff members and we were 
committed to supporting local expertise.
    For each of the fourteen years we have carried out the Partnership 
Program, a committee of our commissioners has developed criteria to 
determine applicant and project eligibility. The organizing principle 
has been to implement recommendations of the Connecticut River Corridor 
Management Plan, developed through consensus at hundreds of meetings by 
valley citizens, and to advance the effectiveness of the Connecticut 
River Byway as an economic development and heritage protection tool.
    Eligible applicants include municipal boards and committees, non-
profit tax-exempt organizations, schools, and regional organizations 
such as regional planning commissions or county conservation districts. 
Informal citizen groups, state and federal agencies, and private 
businesses can apply through one of the above organizations. The 
program invites local projects addressing issues laid out in the river 
and byway plans, including

  <bullet> water quality
  <bullet> fisheries and wildlife habitat
  <bullet> recreation
  <bullet> agriculture and forestry
  <bullet> land use guidance
  <bullet> river-related education
  <bullet> preservation of scenic and historic features
  <bullet> visitor education for the Connecticut River Byway.

    Criteria for grant selection included:

  <bullet> how the project addresses implementation of the Connecticut 
        River Corridor Management Plan or the Connecticut River Byway 
        Corridor Plan
  <bullet> The tangible results and lasting benefits to the community 
        and/or the watershed
  <bullet> Demonstration of cooperation within the community, 
        establishment of partnerships with public, private, and 
        community resources, or encouragement of cross-river efforts 
        between NH & VT
  <bullet> Ability to leverage additional funds, obtain commitments of 
        technical assistance, materials, or support from other sources
  <bullet> Likelihood of success given the project scope, requested 
        support, and organizational commitment
  <bullet> A plan for publicity and community outreach about the 
        project and its benefits.

    Selection process: Each year, CRJC assembled a Selection Committee 
of commissioners and Byway Council representatives to evaluate and 
select winning applications. CRJC staff reviewed the applications for 
completeness and included both less experienced grant applicants, such 
as a local scout troop or historical society, who might propose a 
compelling project with strong local need, with organizations with 
professional staff such as The Nature Conservancy.
    Selection committee members reviewed and ranked the applications 
according to a consistent scoring system. Staff then assembled scores 
and presented the combined rankings to the committee at a day-long 
meeting, during which the committee made final award selections. The 
committee strived to balance awards in each of the topic areas, and 
also to achieve a geographic balance. The result is that, over the 14 
years of the program, nearly every single community of the 214 towns in 
the Upper Connecticut River watershed has experienced the benefits of 
the program, and much progress has been made in implementing the 
Connecticut River Management Plan and Connecticut River Byway Corridor 
Plan.
    Matching dollars were not required in the first 14 years of the 
program, although higher ranking was given to applications if match was 
offered.. CRJC has found that the Partnership Program has been 
especially instrumental in providing the required local cash match for 
New Hampshire's Land and Community Heritage Investment Program, and has 
been one of the only sources of such match for small communities of 
modest means who are facing challenges such as the loss of a beloved 
local landmark or key parcel of prime farmland.
    CRJC made awards of $500-$5000, with an occasional award up to 
$8,000 if the results and public benefit are outstanding and clearly 
demonstrate a need for additional funding. Awards were distributed at 
an awards ceremony that brought together winning applicants from all 
over the river valley. This event provided an inspiring venue for 
further energy and creativity on behalf of the watershed, as the 
stories of other projects prompted many applicants to envision similar 
efforts in their own communities.
    In the first 14 years of the program, CRJC provided 75% of the 
grant award up front, reserving 25% pending receipt of a report 
detailing project completion. Given the need to stretch grant dollars 
further in current economic times, it seems appropriate to require a 
25% match and provide 50% of project funding at the onset, and provide 
the final 25% on completion.
                    examples of partnership projects
    The Connecticut River Partnership Program has dovetailed well with 
state-sponsored programs on both sides of the river. The Partnership 
Program has funded 57 projects that support Vermont's Clean and Clear 
Action Program, established by Governor Jim Douglas. These include 
projects such as a stream geomorphic assessment of the Wells River 
Watershed, a project to reconstruct a highly eroded river access trail 
next to the historic Dummerston covered bridge to reduce sediment-laden 
storm water runoff into the West River, and a citizen-scientist-based 
program for monitoring and wildlife activities at Herrick's Cove in 
Rockingham, home to 300 species of birds and a major stopover for 
migrating waterfowl, to guide future management of the property.
    Support for projects in the 40% of Vermont's land area that falls 
within the Connecticut River watershed has been extremely important, 
since the state's water quality protection dollars are largely targeted 
toward the Lake Champlain basin on the far side of the state.
    On the New Hampshire side, Partnership Program funds have provided 
the essential local cash match for the state's Land and Community 
Heritage Investment Program, allowing, for example, conservation of key 
river frontage, habitat, and floodplains and the rescue of historic 
properties of strong state and local significance. Many communities in 
the Connecticut River Valley would not be able to take advantage of 
this state program without the support of the Partnership. In both 
states, the Partnership Program has also offered a needed source of 
project support in the third of the upper watershed that is not 
eligible for grants from the Upper Connecticut River Mitigation and 
Enhancement Fund. This fund was established by New England Power 
Company as a condition of a renewed FERC license for its hydro dams in 
the Fifteen Mile Falls region of the Connecticut River. Funds are 
available only through this program only for projects north of the 
White River confluence in the Hartford/Lebanon area. Beneficiaries of 
Partnership grants include:

  <bullet> Watershed groups
  <bullet> Historical societies
  <bullet> Local conservation commissions
  <bullet> Scout troops
  <bullet> Land trusts
  <bullet> Regional planning commissions
  <bullet> Youth conservation programs
  <bullet> Main Street programs
  <bullet> Museums
  <bullet> Cooperative Extension Service
  <bullet> Farm organizations
  <bullet> School groups - from elementary to graduate school level
  <bullet> Local and statewide historic preservation organizations

    Over the 14 years of the Partnership Program's activity, in 1992-
2006, CRJC has provided funds for 400 projects, dispersing $1,288,500.
    While CRJC take prides in all of the projects sponsored by the 
Partnership Program, several stand out as achievements worthy of your 
attention. Partnership grants have assisted the Upper Valley Land 
Trust, a local land trust with a well-deserved national reputation, in 
protecting floodplains in the key natural valley flood storage areas 
identified by the US Army Corps of Engineers in 1994 as essential to 
flood protection for all four watershed states. The Corps was unable to 
proceed with acquisition of these flood storage areas as recommended by 
the study, and it fell to local land trusts, assisted by CRJC, to carry 
this important flood protection initiative forward. Partnership funds 
assisted UVLT with surveying, appraisal, and other costs that the farm 
landowners could not meet. In the course of conserving these floodplain 
areas, UVLT and the farmers also protected agricultural soils of 
national significance, fragile riverbanks and riparian habitat, public 
recreational access, and broad scenic views of rural farmscapes from 
the nationally designated Connecticut River Byway. Such projects, aimed 
at keeping the valley an attractive place to visit, live, and work, 
also helped protect a vanishing way of life in northern New England.
    Similarly, the Partnership Program has invested significantly in 
projects to raise awareness and protect federally listed rare, 
threatened, and endangered species in the Connecticut River Valley. 
Among them are a beautifully illustrated and engaging book, Freshwater 
Mussels of the Connecticut River Watershed. Written and illustrated by 
Ethan Nedeau, a notable scientist as well as artist, the book focuses 
on identification and protection of imperiled mussel populations by 
providing scientifically sound information to citizens, conservation 
groups, municipalities, planning boards, businesses, regulatory 
agencies and educators.
    Partnership grants have also helped fund a Migratory Fisheries 
Restoration Initiative, a comprehensive approach to reconnecting river 
habitat by removing barriers such as derelict dams on tributaries in 
both states in order to restore migratory and resident fish 
populations.
    Partnership grants have helped restore church steeples, wooden 
covered bridges, historic windows, and stage curtains. They have 
protected local cultural treasures for the benefit of residents and 
visitors alike. They have built trails, repaired trails, made signs for 
trails, and built canoe campsites along the river.
                    other highlights of crjc's work
    In addition to awards to partner organizations and communities, the 
Connecticut River Joint Commissions have also developed strong programs 
in river science and river education that demonstrate the quality of 
our work.
    River Science - One of the most pervasive problems along the 
Connecticut River is riverbank erosion. Our efforts to understand why 
some riverbanks erode and others do not led us several years ago to the 
science of fluvial geomorphology whose practitioners are able to assess 
how a river moves through the bedrock, soils, and slope of its 
landscape, where and why it floods, changes course, or eats the land. 
Since 2004, we have conducted several fluvial geomorphic assessments on 
the northern Connecticut River and its tributaries, and shared our 
findings with landowners and local officials. In their behalf, we have 
developed riverbank restoration projects that include removing the 
source of the river instability, even when the cause is located on a 
tributary some distance upstream.
    This summer we will be carrying out a riverbank restoration in 
Colebrook New Hampshire that will feature placement of six engineered 
log jams - a technique used in the Pacific Northwest, but not yet in 
the Northeast - as well as redirecting an upstream tributary into its 
natural alluvial fan instead of the straight ditch created by the Corps 
of Engineers in the 1960s. Local school children will help us plant a 
riparian buffer once the log jams are installed, and New Hampshire's 
Governor John Lynch and Vermont's Governor Jim Douglas plan to visit 
the site in October.
    River Education - CRJC and its partner, Dartmouth College, unveiled 
a new educational resource last month, an atlas entitled Where the 
Great River Rises, an Atlas of the Connecticut River Watershed in 
Vermont and New Hampshire. The abundantly illustrated atlas has forty 
four authors, all experts in their fields that range across both 
natural history and human history. It is published by the University 
Press of New England, and is available on amazon.com as well as through 
bookstores in the Connecticut River watershed. We have sent 
complimentary copies to town libraries and schools in order to expand 
and enrich popular understanding of the watershed and the many ways in 
which people and nature influence each other.
why should the connecticut river partnership program be located in the 
                         national park service?
    In 2005, the United States Senate passed the Upper Connecticut 
River Partnership Act; however the measure died due to lack of action 
in the House. At that time, the Senate believed the National Park 
Service was the appropriate home for this bi-state initiative from 
Northern New England.
    We at the Connecticut River Joint Commissions have thought long and 
hard about this question. We have considered locating the Partnership 
at EPAor NOAA or the U.S. Fish and Wildlife Service. Fine as those 
agencies are, each has a more constrained mission and authority, and 
would force us to drop too much of what is needed in our region.
    Of all federal agencies, the National Park Service is the one that 
has had the elasticity to embrace national recreation areas in addition 
to national parks, to embrace wild and scenic rivers, national heritage 
areas, places like Chesapeake Bay Gateways. We admire the National Park 
Service, and believe that at the national level they will find us 
worthy colleagues, even as do Park Service personnel at the New 
Hampshire and Vermont park sites.
    Thank you for consideration of these comments.

    Senator Udall. Thank you very much. We look forward to 
asking you some questions.
    Ms. Farrell, we're looking forward to hearing from you.

  STATEMENT OF MARA FARRELL, CO-FOUNDER, FISHKILL HISTORICAL 
                      FOCUS, FISHKILL, NY

    Ms. Farrell. Thank you. Thank you, chairman. Thank you for 
this opportunity to speak on behalf of the Fishkill Supply 
Depot Encampment, an important Revolutionary War site in New 
York and the American Battlefield Protection Act.
    Over this recent July 4th weekend the Associated Press 
released a story titled, ``Saving New York's Valley Forge, 
Revolutionary patriots graves besieged by development.'' This 
piece was a front page story in newspapers across the country 
and carried by news sources abroad. Indeed there is a vital and 
compelling story to report here.
    At the endangered national register Fishkill Supply Depot 
recent archeological surveys revealed a large Continental Army 
cemetery complex and additional features associated with the 
Depot. Hundreds of graves have been sited on one portion of 
undeveloped acres within this historic district. What we have 
here could well be the largest Revolutionary War burial complex 
ever identified in United States history and one of the first 
United States military cemeteries.
    So I'm here today to speak for the hundreds of veterans and 
founding fathers buried here in unmarked graves facing East 
within the boundaries of this great American Heritage site. I 
come with a hope that critical funding and protection will 
become available through the American Battlefield Protection 
Program. I respectfully ask where is there more urgent 
preservation priority in the United States?
    Indeed the Fishkill Supply Depot was an impressive military 
facility. Funded by the Continental Congress it matured into 
the central and most extensive Northern logistical center for 
ammunitions and distributions serving simultaneously as a 
medical complex, prison facility and residence for military 
officers and soldiers during the Revolutionary War. Best 
visualized as a compact military city, it is unique in its 
continuous military occupation during the Revolution.
    We hear much about the rigors of the winter at Valley 
Forge, however what the soldiers endured in Fishkill was far 
worse. Conditions were harsh. We've recently learned through 
onsite archeological studies conducted in 2008, excuse me, that 
starving soldiers may have been forced to eat their beloved 
horses in order to remain alive.
    So we now know that hundreds, if not thousands who 
sacrificed their lives are buried at the Depot complex in what 
has long been termed an unknown location. The archeologists 
onsite the night the first graves were discovered described the 
experience as deeply emotional and heart wrenching. As Senator 
Schumer said on June 1st when visiting the Depot, ``The 
sacrifices of patriotic Americans should never be forgotten nor 
should their graves be paved over.''
    As a result of the recent publicity we are beginning to 
receive previously unknown information from Americans whose 
ancestors were known to have served in Fishkill. The 
preservation of the Fishkill Supply Depot will help to create a 
sacred place of national memory and allow us to come to better 
understand the brilliant record that this historic site has yet 
to fully reveal. Excuse me. As you know the American 
Battlefield Protection Program currently provides funding to 
help protect important sites associated with the Civil War, but 
sites associated with the American Revolution and the War of 
1812 are not eligible for this funding.
    In its current form the Act has been very effective in 
helping to preserve important sites associated with the war 
that nearly tore this Nation apart. But it does nothing to help 
preserve sites associated with the Nation's birth. The 
currently proposed changes to the act would provide support to 
preserving those sites that help to define the very heart and 
soul of America, sites like the Fishkill Supply Depot, a site 
that provided for those very first American warriors as they 
fought to create this Nation.
    So we ask that you support this bill that you recognize 
that it is not--that it is just as important to help preserve 
places associated with the initial founding of this great Union 
of individual colonies into a single Nation as it is to 
preserve places associated with the fight to preserve that 
Union. So I speak to you on behalf of the Fishkill Supply Depot 
and its newly discovered Continental army cemetery complex as 
well as other Revolutionary War sites. Today we have an 
extraordinary opportunity to recover from past mistakes and 
honor New York's Valley Forge.
    Thank you for your leadership.
    [The prepared statement of Ms. Farrell follows:]
  Prepared Statement of Mara Farrell, Co-Founder, Fishkill Historical 
                          Focus, Fishkill, NY
    Thank you, Chairman Udall and members of the Committee. I am Mara 
Farrell, Co-Founder of the citizens' group, Fishkill Historical Focus. 
Thank you for this opportunity to speak on behalf of the Fishkill 
Supply Depot and Encampment, an important Revolutionary War Site in New 
York, which despite being listed on the National Register of Historic 
Places since the 1970's has been severely damaged in the past. 
Currently, the last remaining intact sections of this site, which 
played an important role in the creation of the United States are 
endangered by proposed development. I would also like to take this 
opportunity to extend heartfelt thanks to Senator Schumer for his 
outstanding support of the Fishkill Supply Depot. With your leadership, 
its story and its open space have an unparalleled opportunity to 
achieve the legacy they so richly deserve.
    Over this recent July 4th weekend, the Associated Press released a 
story titled, ``Saving NY's Valley Forge: Revolutionary War patriots' 
graves besieged by development''. This piece was a front-page story in 
newspapers across the country and carried by news sources abroad. And 
indeed there is a vital and compelling story to report. At the 
endangered National Register Fishkill Supply Depot, recent 
archaeological surveys have revealed a large Continental Army Cemetery 
Complex and the remains of additional features associated with the 
depot. Hundreds of graves have been sited on one portion of the 
undeveloped acres within this historic district - a portion currently 
on the market and threatened with strip mall development.
    What we have here could well be the largest Revolutionary War 
burial complex ever identified in United States history and one of the 
first United States Military Cemeteries. Properly preserving the 
Continental Army's burial ground should go without saying. These are 
soldiers buried by soldiers in a remarkable military facility that 
sustained the Revolutionary War effort through very lean years. Great 
American history is at risk here. We underscore our concern: the twenty 
undeveloped acres left as open space in this historic district remain 
in danger. Even with this great discovery of the Continental Army 
Cemetery Complex, commercial site plans could potentially move forward.
    And so I come here today to speak for the hundreds of veterans and 
founding fathers buried here, in unmarked graves facing east, within 
the boundaries of this great American heritage site - and I come with 
the hope that critical funding and protection will become available 
through the American Battlefield Protection Program. I respectfully 
ask: Where is there a more urgent preservation priority in the United 
States? A Continental Army Cemetery Complex is at imminent risk, as 
well as vital land and features directly contributing to the success of 
the American Revolution.
    The Hudson River Valley of New York State is lauded for its natural 
beauty and history. In the town of Fishkill, several miles from the 
river and surrounded by the Hudson Highlands, lies the physical space 
that once defined the Fishkill Supply Depot. Established by General 
George Washington and serving at varying times as a headquarters and 
nexus point for General Israel Putnam, General Alexander McDougall, 
General Horatio Gates, Alexander Hamilton and General Lafayette, it 
played an essential role in the Continental Army's victory over British 
forces. In spite of its great historical significance, in the latter 
half of the twentieth century, rapid suburbanization obscured its 
stories and preservation. In 1974, the best efforts of local 
conservation groups failed. A substantial portion of the famous 
Revolutionary War site was sacrificed to build the now defunct Dutchess 
Mall.
    Following this fateful decision, the great legacy of the Fishkill 
Supply Depot was largely forgotten. Aside from the Van Wyck Homestead, 
which served as an officers' headquarters, it seemed hardly a trace of 
the depot remained. However, prior archaeological and scholarly 
research revealed otherwise.
    And indeed, The Fishkill Supply Depot and Encampment was an 
impressive military facility. Funded by the Continental Congress, it 
matured into the central and most extensive Northern logistical center 
for munitions and distribution, serving simultaneously as a medical 
complex, prison facility and residence for military officers and 
soldiers during the Revolutionary War. The activity level at this 
military installation was intense and constant. Ultimately, the 
Fishkill Supply Depot prevented the colonies from being divided by the 
British, which would have caused the collapse of the entire American 
Revolution.
    The Fishkill Depot Complex, best visualized as a compact military 
city, is unique in it continuous military occupation during the 
Revolution - thousands of Continental troops and Militia units resided 
at the Depot Complex from October of 1776 through April of 1783 - close 
to the entire duration of the war. Soldiers at the encampment suffered 
through numerous bitter winters. We hear much about the rigors of the 
winter at Valley Forge; however, what the soldiers endured in Fishkill 
was far worse, over the course of every difficult winter of the war. 
Conditions were harsh, winter weather - brutal, and food scarce. We 
have recently learned through on-site archaeological studies conducted 
in 2008, that starving soldiers may have been forced to eat their 
beloved horses in order to remain alive.
    Historians believe that hundreds, if not thousands, of Continental 
Army soldiers who sacrificed their lives and died from war wounds, 
hypothermia, dysentery, small pox and other diseases are buried at the 
Depot Complex, in what has long been termed an ``unknown'' location. 
Today, of course, the big news is that finally this location is no 
longer ``unknown''. Through rigorous archaeological testing and remote 
sensing, the location of the Continental Army Cemetery Complex, which 
again I state could well be the largest ever identified in United 
States history, has been confirmed. And it is located at the precise 
site where new construction was to begin for a strip mall. The 
archaeologists on-site the night the first graves were discovered, 
describe the experience as deeply emotional and heart-wrenching.
    Successful towns across America have understood the importance of 
cherishing their historic spaces, and have recognized that progress and 
development can come not at the expense of historic preservation, but 
hand in hand with it. Real estate carries history, but history is more 
than real estate - history is a force that enriches our land. Once 
``lost history'' of this magnitude is recovered, heritage tourism and 
economic opportunity follows.
    As Senator Schumer said on June 1, ``No matter how pro-development 
we are, covering up great historical landmarks like this with a 
shopping mall doesn't seem like the way we should be honoring our past 
and honoring who we are. The bottom line is very simple,'' Senator 
Schumer said, ``The sacrifices of patriotic Americans should never be 
forgotten nor should their graves be paved over.''
    As a result of the recent publicity, we are beginning to receive 
previously unknown information from Americans whose ancestors were 
known to have served in Fishkill. So protection of the remaining 
portions of the site is a deeply patriotic objective. Its preservation 
will help to create a sacred place of national memory, and allow us to 
come to better understand the brilliant record that the Fishkill Supply 
Depot and Encampment has yet to fully reveal.
    As you know, the American Battlefield Protection Program currently 
provides funding to help protect important sites associated with the 
Civil War, but sites associated with the American Revolution and the 
War of 1812 are not eligible for this funding. In its current form, the 
act has been very effective in helping to preserve important sites 
associated with the war that nearly tore this nation apart, but it does 
nothing to help preserve sites associated with the nation's birth. The 
currently proposed changes to the act would provide support to 
preserving those sites that helped to define the very heart and soul of 
America, sites like the Fishkill Supply Depot, a site that provided for 
those very first American warriors as they fought to create this 
nation. We ask that you support this bill, that you recognize that it 
is just as important to help preserve places associated with the 
initial founding of this great Union of individual colonies into a 
single nation, as it is to preserve places associated with the fight to 
preserve that Union. I speak to you on behalf of the Fishkill Supply 
Depot and its newly discovered cemetery complex, as well as other 
Revolutionary War sites. Today we have an extraordinary opportunity to 
recover from past mistakes and honor New York's Valley Forge.
    Thank you for your leadership. I look forward to your questions.

    Senator Udall. Thank you, Ms. Farrell for that fine 
testimony. We will now turn to a round of questions. We've been 
joined also by Senator Sanders who I know will be directing 
some questions at the panel.
    But let me start. Ms. Farrell, I'll direct my questions to 
you. Do you have an estimate of how many Revolutionary War and 
War of 1812 battlefield sites might be eligible to receive 
funding if the bill were enacted?
    Ms. Farrell. I know when the report was prepared--there is 
an extensive list of sites.
    Senator Udall. We'll keep the record open and if you have 
an exact number or at least an approximate number certainly 
we'd appreciate that for the record.
    Assuming the bill is enacted and money is appropriated, how 
do you see the program working? Let me ask a follow on 
question. I think it's related.
    Since there's no guarantee whether your organization or any 
other would benefit from the funding do you anticipate 
submitting grant requests directly to the Park Service or would 
there be a separate organization coordinating the grant 
requests?
    Ms. Farrell. We need to work closely with the State Office 
of Historic Preservation. We need to establish stewardship of 
this site. So right now it's--definitely more decisions need to 
take place on that level to see how it would be put together.
    We're, of course, concerned about these 20 acres that have 
been proposed for commercial development. The national 
registered site, itself, is 70 acres. Much of it has been 
impacted by development in the past starting in 1974, which 
makes it all the more critical to preserve what is remaining.
    As I said, you know, we have, of course, the cemetery 
complex which is, of course, vulnerable, as well as other 
really intriguing features related to the workings of the 
Fishkill Supply Depot.
    Senator Udall. Thank you. As you generate more information 
and more planning takes place again we would be eager to 
receive that information.
    Ms. Farrell. Thank you. Thank you.
    Senator Udall. Let me recognize Senator Sanders who has 
joined us. I know he has a very busy schedule. I know Senator 
Shaheen is willing to yield to him.

  STATEMENT OF HON. BERNARD SANDERS, U.S. SENATOR FROM VERMONT

    Senator Sanders. Let me thank you and let me thank Senator 
Shaheen for her indulgence here. Welcome to our two guests. 
I'll be very brief. Then I'm going to run out of here.
    But Mr. Chairman, thanks very much for holding what is a 
very important and interesting hearing and for including S. 
1117, the Upper Connecticut River Partnership Act in this 
discussion. I'm a co-sponsor of this bipartisan legislation 
which was introduced by Senator Leahy and co-sponsored by our 
colleagues from New Hampshire, Senators Gregg and Shaheen. We 
have come together to support this legislation which would 
provide grants and technical assistance for activities within 
the Upper Connecticut River Watershed.
    The legislation introduced would provide grants to non-
profits, State and local governments and private sector 
entities to carry out conservation and restoration projects. In 
addition grants could support interpretation of cultural, 
recreational and natural resources in the watershed. The total 
authorization for this bill would be $1 million a year. A 
similar bill passed in the Senate in 2004, but no action was 
taken in the House.
    The Upper Connecticut River Watershed comprises 41 percent 
of the land area in Vermont and 33 percent of the land area in 
New Hampshire. The Connecticut River itself is home to a wide 
variety of wildlife including 250 species of birds, 59 species 
of mammals, 22 species of reptiles, et cetera, et cetera. In 
addition the river and its watershed are home to thousands of 
different kinds of plants and trees. The river and its 
watershed also provide numerous opportunities for recreation 
such as boating and fishing. The watershed also has significant 
cultural and historical assets including covered bridges, 
heritage trails and historic homes and falls.
    Today I just want to welcome and thank Sharon Francis, the 
Executive Director with the Connecticut River Joint 
Commissions. The Joint Commissions came about in 1989 after 
separate commissions in Vermont and New Hampshire merged. See, 
occasionally the States can get together. Very rarely, but they 
can occasionally.
    This unique two State partnership has fostered cooperation 
amongst farmers, conservationist and others interested in 
preserving the Connecticut River and its watershed while 
promoting economic development opportunities in the region. I 
thank you, Sharon, for taking the time to join us today for 
this hearing, for the good work you've done. Bottom line is 
this is an important piece of legislation and I look forward to 
working with Senator Shaheen and making sure that we pass it. 
So thank you.
    Mr. Chairman, thank you very much.
    Senator Udall. Thank you, Senator Sanders. I might before I 
turn to Senator Shaheen speak to Ms. Francis and ask if it's 
alright with you when I talk to my Uncle Stewart that I mention 
you to him. I chaired a hearing yesterday on hard rock mining 
reform, another area in which he's been very interested for 
many years. It's only an 1872 law that has----
    Ms. Francis. Right.
    Senator Udall [continuing]. Never seen adjustments and 
reforms. There's a growing consensus that we need to reform 
that law. But I'd like to send him your good wishes. He's 
approaching 90.
    Ms. Francis. I know.
    Senator Udall. He's still in very good condition. I would 
add that the idea was appropriate and powerful. The execution 
of how to make that idea a reality obviously had to go through 
a variety of iterations. In the West we share a similar outlook 
that often local control and local initiatives are the best way 
to accomplish important land conservation and land preservation 
efforts.
    I also would note that I described New Hampshire as the 
near West in a recent hearing. Senator Shaheen took some 
offense to that. So I'm still trying to make it up to her.
    But I do know my geography to the extent that the 
Connecticut River divides the great States of Vermont and New 
Hampshire, at least in the lower reaches. I do know that----
    Ms. Francis. It joins them.
    Senator Udall. It joins them. That's a better--that's a 
much more appropriate and effective way to think of it.
    Ms. Francis. Right.
    Senator Udall. I do note that the Connecticut River 
headwaters are in the fourth Connecticut Lake.
    Ms. Francis. Yes.
    Senator Udall. So I hope that Connecticut appropriately 
thanks you for lending it the word Connecticut with which it 
describes its own State. But this is an important effort. As 
chairman of this subcommittee, I look forward to working with 
you. I now recognize Senator Shaheen.
    Senator Shaheen. Thank you very much, Mr. Chairman. You can 
see why Sharon is so good at what she does. Pointing out that 
the river joins the States of New Hampshire and Vermont, which 
in effect, it does. Senator Sanders pointed out that this an 
area where the two States have worked very closely together to 
preserve our sections of the Connecticut River.
    Ms. Stevenson talked a little bit about existing programs 
within the National Park Service that were already available to 
help address some of the concerns that are raised by this 
legislation. I wonder if you could talk a little bit about what 
your experience has been with those. Why you think it's been so 
challenging to get support from those programs for the work 
that you've been doing along the Connecticut River.
    Ms. Francis. I'll mention two. The Rivers and Trails 
Conservation Assistance Program of the Park Service through 
which a Park Service specialist will go and help a group build 
a trail, plan a trail, develop a river conservation plan. For a 
fee, this isn't a free service.
    Now there have been maybe half a dozen, in 20 years of 
those accomplishments in our river valley. That's not a lot on 
275 miles of river and many hundreds more of major tributaries. 
In the 1990s, late 1990s, the Park Service conducted a heritage 
corridor study for the Connecticut River. The question for them 
was does this valley rise to national significance.
    I don't recall what their criteria of national significance 
were, but the fact that Rudyard Kipling lived there for a while 
was not sufficient of itself. Great architects, great builders, 
great clock makers, distinguished colonial architecture, that 
didn't quite make it of national significance. There is a 
machine tool industry, some of which is still alive.
    Much of which has marvelous old, long, brick buildings, 
five stories tall with windows and there is quite a story to be 
told about the machine tool industry. Windsor, Vermont, 
Springfield, Vermont, some of Claremont, New Hampshire and then 
some of the sites down in Massachusetts and Connecticut. The 
Park Service was--they thought maybe that would be of national 
significance. But the trouble was none of us wanted to take on 
sponsorship of a machine tool heritage corridor because we feel 
the heritage is so much richer, more extensive, has so many 
more components that to focus it down on that one theme it just 
didn't work in any of the four States.
    The National Park Service Director of Marsh-Billings 
Rockefeller National Historic Site has been assigned, in 
addition to his other duties working to develop a Lake 
Champlain Heritage Corridor. If he had another staff person who 
could do it full time for him it might work. He is way 
overworked and overstressed trying to take on that 
responsibility in addition to operating the area he has.
    So I want to come back to what I said a little bit earlier. 
We're working on a multitude of preservation activities. 
Historic preservation, habitat preservation, river access, 
canoe camp sites, trails, maintenance of trails, just such a--
we've gotten into Fluvial Geomorphology and are doing some 
really, very significant river bank restoration projects 
including one up in Holbrook that you will come and see some 
day.
    Just to do two or three or half a dozen things a year 
doesn't seem to address the range of opportunities and needs. 
Again I come back to the extraordinary talent and good sense 
and really inspired energy on behalf of people in our local 
communities. They don't need someone from the Park Service 
coming in and telling them how to build a trail. They know.
    Senator Shaheen. Thank you. Mr. Chairman, can I ask another 
question? I know that in your testimony you point out some of 
the really important projects that the partnership has done 
along the Connecticut River. I wonder if you could just give us 
a couple of examples now.
    Ms. Francis. Yes.
    Senator Shaheen. That you feel have been critical.
    Ms. Francis. Yes. One is that over several years we have 
been able to help the Upper Valley Land Trust which is a 
regional bi-State land trust of very high caliber, protect farm 
land and flood plains along the river in the Haverhill, Bath 
area of the Connecticut River. Wonderful, wonderful flood plain 
farm land. The core of engineers studied us some time back and 
with the idea of having a natural valley storage area there.
    Their benefit cost ratio formula didn't quite work. But the 
need for flood plain protection is huge for all the reasons we 
understand. So the Upper Valley Land Trust has been going in, 
getting easements from farmers. It helps the farmers 
financially. It also helps the farmers be able to set back a 
riparian buffer so the land isn't cropped right out to the 
river's edge. That, of course, improves water quality and soil 
stability.
    So that is one very good example. As I was going through 
the list last night of projects we've funded, sort of in the 10 
or more category. Repairing church steeples, repairing stained 
glass windows in churches, sage curtains.
    There was a period a couple hundred years ago when every 
little town did a play or several plays during the year and 
their town hall would have a beautiful painted stage curtain. 
These things have had moths in them. They've gotten cracked and 
been up in the attic. Now there's a whole movement of 
restoration of those curtains. So we've been able to give $500 
here and $800 there that have helped the conservancy effort of 
those artifacts.
    I think that another one I would want to emphasize is the 
two schools on opposite sides of the Connecticut River in 
Vermont and New Hampshire decided they wanted to build a cross 
river trail. They've worked on that for a number of years. But 
our funding, our small grants to that effort have bought the 
equipment for that trail building work and even to the gloves 
that kids have worn as they're handling stones.
    It's not a lot of money, but that cross river trail is 
very, very nice. It's some 30 some miles long.
    Senator Shaheen. Thank you very much. I think you very 
eloquently described the importance of this river that is not 
just not environmental, but it really is about the history and 
cultural heritage of both New Hampshire and Vermont. Again----
    Ms. Francis. It's part of New England.
    Senator Shaheen. It is.
    Ms. Francis. Priceless.
    Senator Shaheen. Thank you very much for all of the work 
that you've done.
    Ms. Francis. Thank you.
    Senator Udall. Thank you, Senator Shaheen. Let me thank 
again our panelists, Ms. Farrell, Ms. Francis, you've been very 
helpful to the subcommittee. We will keep the hearing record 
open for 2 weeks for additional statements and questions.
    Senator Udall. We're now going to adjourn the hearing.
    [Whereupon, at 3:26 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Response of Mara Farrell to Question From Senator Murkowski
       s. 1168 revolutionary war and the war of 1812 battlefield 
                           protection program
    Question 1a. Is there a list of battlefields that are being 
considered through this potential program? What percentage of the 
battlefields are located on private property?
    Answer. Battlefields and Associated Historic Properties, like the 
National Register Fishkill Supply Depot, being considered for this 
potential program are those listed in the Report to Congress on the 
Historic Preservation of Revolutionary War and War of 1812 Sites in the 
United States, prepared by the National Park Service, and dated 
September 2007. Of the sites in this report, approximately 62% are 
primarily privately owned.
    Question 1b. What steps will be taken to insure that land is not 
taken from private landowners who do not wish to sell their property?
    Answer. S.1168 amends an existing Civil War battlefield program 
established in Public Law 104-333, 16 USC 469k. The stated purpose of 
the program as currently written in the law is to preserve and protect 
nationally significant battlefields through conservation easements and 
fee-simple purchases of those battlefields from willing sellers. S.1168 
further stipulates that land shall only be acquired from willing 
sellers.
                                 ______
                                 
     Responses of Sharon F. Francis to Questions From Senator Burr
             upper connecticut river partnership (s. 1117)
    Question 1. Why is the Connecticut River Grants and Technical 
Assistance Program needed to provide grants in the upper Connecticut 
River watershed?
    Answer. Because of two decades of active watershed planning and 
citizen recruitment by the Connecticut River Joint Commissions, people 
in this watershed are poised and ready to act upon the recommendations 
they have made.
    The communities and citizens of the Upper Connecticut River 
Watershed have been actively researching and planning for improvements 
in the watershed since 1992, and now have assembled a long list of 
recommendations to move forward. These are articulated in the 
Connecticut River Water Resources Plan, the Connecticut River 
Recreation Management Plan (both recognized by the Federal Energy 
Regulatory Commission as comprehensive plans for the river), the 
Connecticut River Scenic Byway Corridor Management Plan, and their 
predecessor, the Connecticut River Corridor Management Plan.
    This extensive agenda was stimulated and coordinated by the 
Connecticut River Joint Commissions, working with their five local 
river subcommittees of citizens appointed by the 53 riverfront towns in 
New Hampshire and Vermont. These plans are also the blueprint for 
action by the recreation, tourism, and environmental quality agencies 
of the States of New Hampshire and Vermont.
    In 1992, recognizing the high level of civic commitment and talent 
in watershed communities, the Connecticut River Joint Commissions 
initiated a partnership program of small grants. Senator Patrick Leahy 
and Senator Judd Gregg were instrumental in securing this support which 
came from the National Park Service and from the National Oceanic and 
Atmospheric Administration. The last earmark for the upper Connecticut 
River Partnership was in 2006.
    The Connecticut River Joint Commissions is a unique entity--a pair 
of commissions established by two state legislatures for their shared 
river. Our accomplishments are many, including achieving American 
Heritage River designation for the Connecticut River in 1998, gaining 
national scenic byway status for the 500 miles of roadway bordering the 
Connecticut River in 2005, and in 2009 publishing a 260-page Atlas of 
the Connecticut River Watershed in Vermont and New Hampshire.
    The Connecticut River Joint Commissions seeks authorization for 
this program through S. 1117 knowing we will be a worthy partner for 
the National Park Service and offer the Service a way to stimulate 
local conservation accomplishments of a high standard in a region with 
numerous heritage and resource attributes.
             upper connecticut river partnership (s. 1117)
    Question 2. Previously, the Administration has testified in 
opposition to the bill because it would create a new grant program 
focused exclusively on one specific watershed, do you believe that 
there should be a grant program for each watershed in the United 
States?
    Answer. Like the Chesapeake Bay watershed, which also has an 
authorized program home within the National Park Service, and the Lake 
Champlain Basin Program, which has an authorized program home at EPA, 
the Upper Connecticut River watershed is well-organized and prepared to 
make the most of the opportunity offered by a program home within NPS. 
Most watersheds are not prepared to proceed since they do not have the 
benefit of such extensive planning, nor do they boast the level of 
citizen and community engagement of the Upper Connecticut River.
                                 ______
                                 
   Responses of Katherine H. Stevenson to Questions From Senator Burr
        s. 853 white clay creek wild and scenic river additions
    Question 1a. How much of the additions to the White Clay Creek Wild 
and Scenic River flow through public land? How much of the additions 
flow through private land?
    Answer. Approximately 15% of the additions flow through public 
lands. Approximately 85% of the additions flow through private lands.
    Question 1b. How would the designation as a wild and scenic river 
affect current or proposed uses of the river, the water, and the 
surrounding land?
    Answer. Wild and Scenic River designation would affect only those 
uses that curtail the free flowing nature of the river or that have 
direct or adverse impacts to identified outstandingly remarkable 
resources.
    Question 1c. What specific benefits does the 9.9 mile addition to 
the White Clay Creek Wild and Scenic River provide to the local area?
    Answer. The 9.9 mile additions had previously been proposed as 
water supply reservoirs. Local elected officials, the Delaware River 
Basin Commission and residents of the affected river areas recently 
abandoned plans for water supply reservoirs and now support wild and 
scenic river designation. The additions will ensure that the free 
flowing nature of these river areas will be maintained. Designation 
would result in protection for fish and wildlife habitat including that 
of the federally listed Bog Turtle, continued maintenance of river 
water quality, and recreational benefits for the region.
       s. 1168 revolutionary war and the war of 1812 battlefield 
                           protection program
    Question 2. Does the National Park Service have any specific 
battlefields that it hopes to acquire through this program? Of those 
battlefields being considered by the National Park Service how many of 
them are located on private property?
    Answer. The National Park Service has no plans, intent, or ability 
to acquire any specific battlefield through this proposed program. The 
bill authorizes a matching grant program to assist States and local 
communities in acquiring Revolutionary War and the War of 1812 
properties for protective ownership at the State or local level. Such 
State and local acquisitions must be from willing sellers. NPS will 
administer that grant program and will evaluate grant proposals on 
their merit, but NPS cannot use the program to acquire lands for 
itself.
             virgin islands national park caneel bay lease
    Question 3a. Does the National Park Service foresee any potential 
negatives to having the management and operation of Caneel Bay Resort 
convert to a long-term lease arrangement rather than by continuing the 
current retained use estate? What benefits does the National Park 
Service foresee by converting the current arrangement to a long-term 
lease?
    Answer. The National Park Service views a long-term lease as the 
appropriate arrangement for long-term management of the Caneel Bay 
resort, given the unique circumstances of that property. We have not 
identified any specific potential negatives associated with a long-term 
lease at that site. Leasing property within a national park to a 
private entity always carries some risk that the terms of the lease 
will not be met, but we do not believe that there is any greater risk 
in this case than anywhere else.
    There would be several benefits to Virgin Islands National Park of 
converting the current arrangement to a long-term lease:

  <bullet> The park would have the ability to ensure that the grounds 
        and buildings are maintained in a manner that is consistent 
        with national park preservation values, that the size and use 
        of the property is defined, and that the resort is operated 
        appropriately for its location in a national park;
  <bullet> The park would receive fair market value rental proceeds, 
        which could be used for visitor services and resource 
        protection at the park; and
  <bullet> The park would likely have as a tenant a resort operator 
        with sufficient financing for the business, including the 
        financial assistance of local tax incentives.

    Question 3b. H.R. 714 proposes the establishment of a long-term 
lease for a period not to exceed 40 years. Why is there no competitive 
process for this long-term lease?
    Answer. The authorization of a lease solely for the current 
operator of the resort would require the operator, as condition of 
receiving of receiving the lease, to terminate the retained use estate. 
If other entities were able to compete for the lease, the operator 
would not have the incentive to terminate the existing retained use 
estate which expires by its terms in 2023.
    As mentioned in our testimony, the Caneel Bay resort is an 
exceptional case. In general, where leasing has been determined to be 
appropriate in a national park unit, we support leasing through the 
usual competitive process, consistent with existing law and 
regulations.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    Statement of Hon. Martin O'Malley, Governor, State of Maryland, 
                        Annapolis, MD, on S. 227
    Members of the Subcommittee, Maryland wholeheartedly supports the 
Harriet Tubman National Historical Park and Harriet Tubman Underground 
Railroad National Historical Park Act under consideration by the 
subcommittee today.
    Harriet Tubman is a true American hero whose dedication and courage 
will continue to inspire children and their families to stand up for 
what they believe. The facilities in Maryland and New York and the 
protected lands surrounding them will connect community members and 
visitors to the rich legacy of Tubman's life, her selfless leadership 
of the Underground Railroad, and her humanitarian efforts.
    Upon completion, the Harriet Tubman Discovery Center planned in 
Maryland will serve as a national model and destination for sustainable 
and environmentally responsible building, and will provide a multi-
sensory experience for an estimated 50,000 to 75,000 annual visitors. 
As a welcome and orientation point along the Harriet Tubman Underground 
Railroad Byway and national heritage site associated with the life and 
times of Harriett Tubman, it will also connect visitors with the vast 
outdoor opportunities of the surrounding Blackwater National Wildlife 
Refuge.
    The Discovery Center will also provide administrative headquarters 
for the federally proposed Harriet Tubman Underground Railroad National 
Historic Park. The center will be located on Harriet Tubman Underground 
Railroad State Park - the first State Park in Dorchester County. The 
State Park was created in 2007 on the 17.3-acre Linthicum tract, which 
was acquired through a swap with the U.S. Fish and Wildlife Service. 
Approximately 192 construction jobs and several additional permanent 
and auxiliary jobs will be created as a result of the construction and 
operation of the Discovery Center and Park sites throughout Dorchester, 
Caroline, and Talbot Counties.
    The Harriet Tubman Underground Railroad National Historical Park 
will play a critical role in developing an authentic and sustainable 
tourism experience in Dorchester, Caroline and Talbot counties in 
Maryland. The center will memorialize the struggles and triumphs of a 
truly remarkable woman, while the protected landscapes will allow 
visitors to travel in the footsteps of her journey and hear history 
interpreted through volunteers, and professionals from the National and 
Maryland Park Services.
    When open in 2012, the park and its facilities will be the 
principal point of welcome and orientation for the Harriet Tubman 
Underground Railroad Byway, a heritage corridor that incorporates the 
seven key Maryland sites named in the National Park Service's Harriet 
Tubman Special Resource Study. A great deal of work has been done to 
identify the landscapes and places where Harriet Tubman traveled, and a 
land conservation plan has been developed in anticipation of this Act's 
passage, so that we can protect the remaining natural, historical and 
cultural resources associated with her life's work.
    The Harriet Tubman Underground Railroad State Park will serve as a 
trailhead and major orientation and interpretation point along the 
Harriet Tubman Underground Railroad Byway. The state park will 
recognize and honor the Underground Railroad's foremost conductor and 
Maryland native through interpretive exhibits and a memorial garden. 
When completed, the new facility will fill a critical void in 
recognizing her life, legacy, and her significant impact on national 
history, as described in the National Park Service Harriet Tubman 
Special Resource Study.
    Funding for various project components is being sought from 
different sources. This is truly a partnership between Federal, State 
and local organizations. The State has already secured $2.2 million for 
the Tubman Discovery Center design which is under way. Maryland has 
approved $4.4 million toward construction of the facility and will ask 
for approval in the next budget cycle for an additional $3.6 million 
toward construction. The State of Maryland also expended $258,000 on 
acquiring the land for the Discovery Center and will also use Program 
Open Space dollars to help conserve land identified in the conservation 
plan. The entire project is estimated to cost $21.4 million when 
completed. The project has had a great deal of opportunity for public 
comment and input. The State convened a working group comprised of 
local citizens and representatives of state, local and federal 
agencies. This group continues to guide and shape the project until 
completion.
    This project is nationally significant because it will provide the 
best overall opportunity for residents and visitors to learn about 
Harriet Tubman and her homeland as she grew from infant to woman, 
enslaved to free, ordinary to extraordinary. The recent Special 
Resource Study, commissioned by Congress in 2000 and completed by NPS 
in 2008, determined that ``the resources related to Harriet Tubman in 
Dorchester, Caroline, and Talbot counties, Maryland, are nationally 
significant.because they have been found to meet National Historic 
Landmark criteria.'' Furthermore, ``these resources have also been 
found to meet the four criteria necessary for national significance for 
potential new areas of the National Park System'' warranting the 
establishment of the Harriet Tubman Underground Railroad National 
Historical Park in these three counties.
    As a new unit of the Maryland and National Park Services, the Park 
will support significant socioeconomic benefits to citizens through the 
economic impact from heritage tourism and local employment. 
Additionally, it offers superlative opportunities for enjoyment and 
education, and opportunities for 75,000 annual domestic and 
international visitors to understand the impact and meaning of slavery 
in our nation and of one person who overcame the obstacles of this 
pervasive and oppressive institution.
    Maryland is pleased to have been in contact with our counterparts 
in Auburn, New York to share our plans and to mutually support their 
efforts for National Park Service designation as the Special Resource 
Study recommended. We believe the story is best told if it includes the 
beginning of Harriet Tubman's life in Maryland and where her journey 
ultimately ended in New York.
    Harriet Tubman is truly an American hero, and we sincerely 
appreciate your support for this important Act which appropriately 
prescribes actions to honor her remarkable life in both Maryland and 
New York.
                                 ______
                                 
    Statement of Craig Floyd, Chairman and Chief Executive Officer, 
      National Law Enforcement Officers Memorial Fund, on S. 1053
    Thank you for the opportunity to present this statement in support 
of S.1053, a bill to amend the National Law Enforcement Museum Act to 
extend the termination date.
    The National Law Enforcement Officers Memorial Fund is celebrating 
its 25th year of working to increase public support for law enforcement 
by honoring the men and women who wear the badge. For the past 18 
years, we have carried out that mission primarily through the operation 
and maintenance of the National Law Enforcement Officers Memorial, 
located in Judiciary Square in Washington, DC. It is our nation's 
monument to law enforcement officers who have made the ultimate 
sacrifice in service to our communities and our nation.
    Engraved on the Memorial's walls are the names of 18,661 heroic men 
and women who, throughout our nation's history, risked their lives for 
the safety and protection of others. Unlike many other memorials here 
in our nation's capital, our monument is not static. Each May during 
National Police Week, we have the somber responsibility of adding more 
names of fallen heroes to our Memorial.
    More recently, our organization has embarked on a new, and equally 
ambitious, endeavor--to create the first-ever National Law Enforcement 
Museum here in Washington, DC. The mission of the Museum is to tell the 
rich and fascinating story of law enforcement in America and its role 
in our free and democratic society.
    In the year 2000, Congress passed, and President Clinton signed, 
Public Law 106-492 authorizing the Memorial Fund to build the Museum on 
Federal land in Judiciary Square, directly across E Street, NW, from 
the National Law Enforcement Officers Memorial. The legislation 
mandated that construction commence by November 9, 2010.
    In the ensuing years, we have worked diligently to put in place all 
of the necessary pieces, as well as to satisfy all of the statutory 
mandates, to make the vision of this museum a reality.
    To date, our organization has expended more than $13 Million to 
design the building and exhibits, as well as to obtain all of the 
statutorily mandated Federal approvals. The design of the building was 
completed, and both construction and financial documents were submitted 
to the Department of Interior for approval, as mandated by the 
legislation. Both the U.S. Commission of Fine Arts and the National 
Capital Planning Commission have approved the final design of the 
project, also mandated by the legislation; and Clark Construction was 
selected as the general contractor. Design drawings to relocate 
utilities under E Street were completed and approved by the National 
Park Service, with Congress appropriating $1.25 million in funding 
toward this work.
    On the financial side of the project, we have also made great 
progress. To date, almost $40 Million in private funds has been raised 
toward our capital campaign goal of $80 Million. This money has been 
contributed by individual, corporate, foundation, and law enforcement 
donors. The District of Columbia Government approved the issuance of 
$80 Million in Industrial Revenue Bonds, and Merrill Lynch issued a 
commitment to underwrite these bonds. More recently, the DC Council 
passed legislation providing the project with a sales and use tax 
credit of $10 Million during the first 20 years of operation.
    Design of the exhibits has been completed and a fabricator selected 
to construct them. We have collected more than 8,000 artifacts thus 
far, and have executed loan agreements for artifacts with many Federal 
agencies, including the FBI, ATF and Secret Service. In addition, the 
Society of Former Special Agents of the FBI has named our Museum as its 
official repository of its oral history project.
    The various, sometimes complex elements of the project were coming 
together nicely. The Memorial Fund was prepared to begin construction 
in the fall of 2009, more than one year before the statutory 
authorization expired. Then, the worst financial crisis in decades hit 
our nation. As with other nonprofit organizations, our fundraising 
slowed in the current economic environment. However, even more 
significantly, Merrill Lynch's commitment to underwrite our bonds was 
no longer operative, and bond market funding has been, and continues to 
be, essentially frozen.
    The National Law Enforcement Officers Memorial Fund has satisfied, 
or was in a very strong position to satisfy, every statutory mandate 
associated with the Museum project, and we were prepared to commence 
construction in a timely fashion. However, because of external factors 
beyond our control--most notably, the extremely tight credit market for 
bonds--we may not be able to meet the statutory deadline of November 
10, 2010, to begin construction.
    We continue to work diligently and energetically in an effort to 
get shovels in the ground in advance of that date. But at the same 
time, we have to be realistic about the bond market and how long it may 
take for credit to become more accessible and affordable for this 
project. Adjusting the statutory deadline for commencing construction 
would give us the flexibility to keep the project moving forward in a 
manner that is prudent to our donors and supporters.
    It is well past the time for our nation to have a Congressionally 
authorized, world-class museum dedicated to telling the story of law 
enforcement in America. The National Law Enforcement Museum will be 
just such a facility - one that will fascinate, educate and inspire our 
citizens, in particular our young people. By helping the public better 
understand and appreciate the work of law enforcement, the Museum will 
serve to build the bridges of trust and cooperation that are so 
essential to the safety of our communities and the long-term strength 
of our democracy. This Museum needs to be built.
    Therefore, we respectfully urge that you support S.1053 and give us 
the flexibility to complete this important Congressionally authorized 
project as a fitting monument to our nation's law enforcement heroes.
    Thank you for your continued support of the National Law 
Enforcement Officers Memorial Fund and, especially, the 900,000 
dedicated men and women of American law enforcement who put their lives 
on the line every day for the safety and protection of all of us and 
our families. It is for these heroes that the Memorial Fund has worked 
so hard over the past quarter century to create the National Law 
Enforcement Officers Memorial and, now, to build the National Law 
Enforcement Museum.
                                 ______
                                 
           National Parks Conservation Association,
                                     National Headquarters,
                                      Washington, DC, June 3, 2009.
Hon. Jeff Bingaman,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: On behalf of our 340,000 members, I'm writing to 
express our strong support for the passage of S. 227, a bill 
establishing the Harriet Tubman National Historical Park in Auburn, New 
York, and the Harriet Tubman Underground Railroad National Historical 
Park in Caroline, Dorchester, and Talbot Counties in Maryland. Harriet 
Tubman is one of the most widely recognized icons in America history, 
but myth and misinformation have obscured the true significance of her 
contributions to this country. The sites created by S. 227 would 
provide the public with a much clearer understanding of two critical 
but poorly understood periods in Mrs. Tubman's life and place the 
responsibility for preserving and interpreting that history in the 
hands of the National Park Service, the one Federal agency with the 
expertise, partnership framework, and commitment to reestablish Harriet 
Tubman's relevance to current generations.
    Harriet Tubman once said ``Slavery is the next thing to hell.'' 
Having experienced firsthand the violence and degradation that was the 
lot of the enslaved, she devoted her life to freeing family members, 
friends, and strangers, service that she rendered at great personal 
risk. Naturally, history has focused on her role as a conductor on the 
Underground Railroad. Harriet Tubman's life, however, encompassed so 
much more than a fearless resistance to slavery and injustice.
    Harriet Tubman was a sister, a wife, and a mother. She capably 
served the Union Army during the Civil War as a both nurse and spy. As 
an elder in Auburn, New York, Mrs. Tubman suffered through great 
personal hardships, aided the less fortunate, and fought for gender and 
racial equality and justice under the law. During a time when the 
leadership of women was questioned or dismissed, Mrs. Tubman led. 
During a period when the new birth of freedom for four million enslaved 
African Americans was dashed on the failure of Reconstruction, Mrs. 
Tubman inspired others with her faith and perseverance. The 
resurrection of such a powerful story is in the vested interest of all 
Americans.
    We urge due consideration and timely passage of S. 227 and pledge 
to provide whatever assistance may be required to pass this bill.
            Sincerely,
                                               Alan Spears,
                                        Legislative Representative.
                                 ______
                                 
                              Civil War Preservation Trust,
                                                     July 13, 2009.
Hon. Mark Udall,
U.S. Senate, 317 Hart Senate Office Building, Washington, DC.
    Dear Chairman Udall: I am writing on behalf of the Civil War 
Preservation Trust (CWPT), a national nonprofit battlefield 
preservation organization, to express our concerns regarding the 
Revolutionary War and War of 1812 Battlefield Protection Act (S. 1168 
in the Senate, H.R. 1694 in the House).
    I would first like to express that we unequivocally support the 
creation of a program to preserve battlefield lands associated with the 
Revolutionary War and War of 1812. In fact, our organization has worked 
in support of legislation to create such a program and we applaud 
Senator Charles Schumer and Congressman Rush Holt for their leadership 
in introducing these bills. Such a program is long overdue.
    That being said, we have serious concerns regarding the way the 
bills have been written, specifically the clause to amend the Omnibus 
Public Land Management Act (P.L 111-11) to add the Revolutionary War 
and War of 1812 grant program under the same $10 million authorization 
as the Civil War Battlefield Preservation Program.
    Including both programs under the same authorization will 
jeopardize the success of both programs. The Civil War Battlefield 
Preservation Program, while authorized at $10 million, has received on 
average an appropriation of $3.4 million per year since the program's 
authorization in 2002. To have both programs, covering three 
significant conflicts in American history, competing for this same 
relatively small amount of money is a disservice to these programs.
    The high cost of raw land means many acquisitions reach into the 
hundred of thousands--often millions--of dollars. As a result, if both 
programs are competing for the same small pot of money--with land 
prices remaining incredibly high even in these economic times, 
especially in the Northeast where most Revolutionary War battles were 
fought--fewer sites will be able to be preserved from any of the three 
wars. This will mean that instead of having the entire or a majority of 
a battlefield preserved as outdoor classrooms for visitors, only small 
portions of battlefields will be preserved. This makes the task of 
interpreting a battle and making it accessible to the public that much 
harder. A visitor's contemplative, educational experience at a 
battlefield is contingent on the preservation of a large portion of the 
battlefield and a relatively unobstructed view of the land, thus giving 
the visitor a sense of how the landscape would have looked during the 
battle.
    We are in a race against time to preserve these battlefield lands. 
Most battlefields--Civil War, Revolutionary War and War of 1812 
included--are located in areas where development is quickly encroaching 
and raw land prices are continuing to rise, or at least hold steady at 
high prices. We estimate that by the National Park Service Centennial 
in 2016, most Civil War battlefield lands will either be preserved or 
paved over. Estimates regarding the loss of Revolutionary War and War 
of 1812 battlefield lands make clear that they are disappearing rapidly 
as well.
    We believe the best resolution to this issue is for the individual 
programs to have separate $10 million authorizations, but keeping both 
grant programs administered by ABET. Separate authorizations will allow 
the programs to have their own line items within the budget and not 
compete for the same pot of money. This was the original intent when 
legislation was first introduced by Congressman Holt creating a 
Revolutionary War and War of 1812 grant program. If for some reason 
this is not considered a viable solution, and both programs are to 
remain under the same authorization, the authorized amount for the 
programs should be increased to $20 million with their annual 
appropriations at least doubled over current levels. Anything short of 
this will jeopardize the successful record of the Civil War Battlefield 
Preservation Program, and severely hinder the progress of a new 
Revolutionary War/War of 1812 Preservation Program.
    I want to reiterate that we believe that the best solution is for 
the two programs to have separate authorizations.
    Thank you for your consideration. We look forward to working with 
the National Parks Subcommittee, Senator Schumer and Congressman Holt 
to resolve this issue and ensure the continued success of the Civil War 
Battlefield Preservation Program as well as a successful start to the 
creation of a Revolutionary War and War of 1812 Battlefield Protection 
Program. Please let me know if you or your staff has any questions.
            Sincerely,
                                       O. James Lighthizer,
                                                         President.

                                    

      

</pre></body></html>
